<html>
<title> - THE FISCAL YEAR 2016 BUDGET REQUEST FOR THE DEPARTMENT OF THE INTERIOR</title>
<body><pre>[Senate Hearing 114-35]
[From the U.S. Government Publishing Office]




                                                         S. Hrg. 114-35

 THE FISCAL YEAR 2016 BUDGET REQUEST FOR THE DEPARTMENT OF THE INTERIOR

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                                   ON

              THE FISCAL YEAR 2016 BUDGET REQUEST FOR THE
                       DEPARTMENT OF THE INTERIOR

                               __________

                           FEBRUARY 24, 2015



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






                       Printed for the use of the
               Committee on Energy and Natural Resources
                                    ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

94-046                         WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001             
               
               
               
               
               
               
               
               
               
               
               
               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                    LISA MURKOWSKI, Alaska, Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       BERNARD SANDERS, Vermont
JEFF FLAKE, Arizona                  DEBBIE STABENOW, Michigan
 STEVE DAINES, Montana               AL FRANKEN, Minnesota
BILL CASSIDY, Louisiana              JOE MANCHIN III, West Virginia
CORY GARDNER, Colorado               MARTIN HEINRICH, New Mexico
ROB PORTMAN, Ohio                    MAZIE K. HIRONO, Hawaii
JOHN HOEVEN, North Dakota            ANGUS S. KING, JR., Maine
LAMAR ALEXANDER, Tennessee           ELIZABETH WARREN, Massachusetts
SHELLEY MOORE CAPITO, West Virginia

                    Karen K. Billups, Staff Director
                Patrick J. McCormick III, Chief Counsel
   Christopher Kearney, Budget Analyst and Senior Professional Staff 
                                 Member
           Angela Becker-Dippmann, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                David Brooks, Democratic General Counsel
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Murkowski, Hon. Lisa, Chairman, and a U.S. Senator from Alaska...     1
Cantwell, Hon. Maria, Ranking Member, and a U.S. Senator from 
  Washington.....................................................     4

                               WITNESSES

Jewell, Hon. Sally, Secretary, U.S. Department of the Interior...     7
Connor, Hon. Michael, Deputy Secretary, U.S. Department of the 
  Interior.......................................................    37

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

Cantwell, Hon. Maria
          Opening Statement......................................     4
Cassidy, Hon. Bill
          Map: Historic Land Change in Coastal Louisiana.........    44
          Chart: Hurricane Isaac Flooding--Tidal Surge...........    46
Jewell, Hon. Sally
          Opening Statement......................................     7
          Written Testimony......................................    10
          Responses to Questions for the Record..................   126
          For the record: Response to questions from Chairman 
              Murkowski..........................................   188
Murkowski, Hon. Lisa
          Opening Statement......................................     1
          Map: Alaskan Lands and Waters Withdrawn from 
              Development........................................     2
Wyden, Hon. Ron
          A Research Paper by Headwaters Economics entitled ``An 
              Assessment of U.S. Federal Coal Royalties'' dated 
              January 2015.......................................    68

 
 THE FISCAL YEAR 2016 BUDGET REQUEST FOR THE DEPARTMENT OF THE INTERIOR

                              ----------                              


                       TUESDAY, FEBRUARY 24, 2015

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:05 a.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Lisa 
Murkowski, Chairman of the committee, presiding.

  OPENING STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR FROM 
                             ALASKA

    The Chairman. I call the hearing to order.
    We are here this morning with Secretary Jewell and Mr. 
Connor. Thank you both for being here to review the President's 
budget request for the Department of the Interior for Fiscal 
Year 2016.
    I am going to spend a little bit of my time in opening 
comments to talk about the many ways in which this 
Administration's actions are having a negative impact on my 
state.
    Secretary Jewell, you and I have had many opportunities to 
visit, one on one, as well as during your trip to Alaska which 
I appreciate you making last week. I don't want to make this 
personal, but the decisions from Interior have lacked balance 
and, instead of recognizing the many opportunities that Alaska 
has with regard to resource production, you have enabled an 
unprecedented attack on our ability to responsibly bring these 
resources to market.
    The President has withdrawn over 22 million more acres of 
Alaska from energy production just in recent weeks. That has 
occurred on top of many other restrictions and regulations 
being imposed on us. It has occurred despite the tremendous 
energy opportunity and potential in those areas, despite our 
``no more'' clause, despite the pressing need to refill our 
pipeline and despite strong opposition from most Alaskans.
    The map that I have behind us is one that my colleagues are 
going to become familiar with because I am going to be pointing 
it out quite frequently.
    [The information referred to follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. The colors on the map represent those areas 
that are withdrawn from any development opportunity, 
whatsoever. Some are, in fact, proposed critical habitat areas 
and so they are not fully withdrawn at this point in time.
    We have the ANWR New Wilderness proposal, the Presidential 
withdrawal offshore, the NPRA withdrawal onshore, the North 
Aleutian Basin offshore, then the critical habitat, the 
wilderness that is already in place, the National Parks areas 
as well as the federal lands.
    I would like to remind my colleagues, this is one fifth the 
size of the United States of America. So when you take off all 
of these areas for any development at all, how do your states 
operate? What do you do?
    I have expressed my frustration, privately and in public. I 
will continue to express my frustration and try to achieve some 
positive results for the people of Alaska, which is really for 
the good of the country because as an energy producing state, 
this is what we do. We share these resources with the rest of 
the country.
    I want to be very clear today that it is not just me 
banging the table. I do not think that I am overreacting. I 
think I am speaking clearly and articulating concerns expressed 
by most Alaskans.
    We had an opportunity last week to be in a northwestern 
community of Kotzebue and the Secretary joined us, the entire 
Alaska delegation, all three of us, the governor, the 
lieutenant governor, the leadership of the House and of the 
Senate, and numerous native leaders. It was very clear that 
there is no daylight amongst the elected leaders in terms of 
how they are viewing these decisions coming out of the 
Administration.
    Again I just want to make it very clear that I oppose this 
Administration's decision on ANWR. I oppose its decision 
offshore. I oppose its costly restrictions and endless delays 
within the NPRA. I oppose what it is doing to our placer 
miners, to our timber industry and to many other resource 
producers who are ready to provide good jobs to hard working 
Alaskans.
    The state of Alaska was actively ignored, the North Slope 
borough, the community of Kaktovik, Alaska native corporations 
and many Alaskans, all of whom asked for an oil and gas 
alternative in Interior's ANWR plan by claiming that it 
requires an act of Congress, even though an act of wilderness 
requires the very same.
    The actions from this Administration seem destined to shut 
down our Trans-Alaska pipeline, weakening our economy, forcing 
our state to make steep budget cuts, and violating the promises 
that were made to us at statehood and since then.
    Now, Madam Secretary, I had hoped that Interior's budget 
would not make this situation any worse, but it fails to clear 
even that low bar. It violates the Budget Control Act ignoring 
the statutory caps and proposing new spending as if we had 
already lifted sequestration. I think that it amounts to 
wishful thinking and not responsible governance.
    It would impose billions of dollars worth of new fees and 
higher taxes on oil, gas, coal and mineral production 
regardless of the consequences. It would eliminate offshore 
revenue sharing which many of us believe should be expanded. 
The Department did not identify realistic offsets for its 
spending requests such as the National Park Centennial, and it 
has proposed no serious reforms for the Land and Water 
Conservation Fund.
    I, personally, was stunned to see Interior's request 
increase by almost $1 billion on a net basis with no funding 
dedicated to cleaning up abandoned legacy wells which were 
drilled by the Federal Government. They walked away from it. 
They walked away from the mess and the responsibility, and we 
have been trying now for decades to get them cleaned up.
    Beyond energy there is King Cove, still totally unresolved. 
Yesterday marked 14 months since this road was rejected. Yet 
again, we have seen nothing in this request to help those whose 
lives are in danger.
    I see a request for about $40 million for adaptation 
projects for tribal communities, but by my calculation that is 
about 12 times less funding than was requested for 
international adaptation projects, just this year alone. So 
what I can't figure out is why the needs of Americans are 
coming second.
    Interior's decisions are hurting Alaskans. You are 
depriving us of jobs, revenues, security and prosperity. 
Alaskans are not alone in this.
    I want my colleagues to understand that I think what we are 
seeing in Alaska is a warning for those in the West. The fact 
is almost every other Western state already has multiple, 
legitimate complaints against Interior. In Wyoming and Idaho, 
it is the sage grouse. In Utah and Colorado, it is Interior's 
refusal to facilitate oil shale development. In Arizona, it is 
the permitting of new copper mines. Across our states, except 
for Alaska, where there is no production on Federal lands, it 
is the significant decline in APDs and oil wells that are 
drilled on our Federal lands.
    This Administration is actively impeding many of the best 
economic opportunities in the West. It is depriving thousands 
who live in our states of the ability to find a good job, earn 
a good wage, and live a good life.
    As Chairman of this Committee and the Appropriations 
Subcommittee with control over the Interior budget, I do want 
to work with you, Secretary Jewell. I do. I also want to work 
with others in the Administration, but my complaint here is 
that you hear from us, but you do not actually hear us.
    In looking at the request I do not see a substantive effort 
to work with Congress. Instead what I am seeing is a disregard 
for enacted law, and I think that has to change and the 
challenge is to find common ground working together. What we 
have seen is very, very discouraging.
    With that, I will turn to the Ranking Member.

 STATEMENT OF HON. MARIA CANTWELL, U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Madam Chair, and thank you for 
holding this hearing.
    I am pleased to see Secretary Jewell here and to be able to 
have conversations with Mr. Connor as well on the President's 
proposed budget for the Department of the Interior.
    In my view this budget represents a balanced and forward 
leaning proposal. It creates jobs and long term economic 
opportunity. It builds strong partnerships with states and 
tribes and local communities when it comes to managing our 
infrastructure and ecosystem resources. It invests in public 
lands for the next generation of Americans to enjoy.
    It is probably no surprise that the Chairwoman and I do 
have different views on a variety of the issues that are being 
discussed here this morning, and many of those do relate to the 
Administration's energy and conservation proposals in the 
Arctic.
    Secretary Jewell, I know you have a very tough job. One of 
the reasons I think the President appointed you is because you 
have a background as an executive in the oil industry as an 
engineer, so it does involve striking an appropriate balance 
between increasing energy production, both onshore and offshore 
in the United States, as well as being sensitive to 
environmental areas.
    I have long supported the Arctic National Wildlife Refuge 
and especially in the coastal plain. The Fish and Wildlife 
Service recently released a comprehensive conservation plan 
that takes an important step of recommending that a significant 
portion of the refuge be designated as wilderness. This 
conservation plan is required by law and had not been updated 
for a quarter of a century. I believe the new plan is a more 
accurate reflection of the values for which the wildlife refuge 
was designated.
    Similarly there has been criticism in the new five year 
leasing plan for the Outer Continental Shelf for excluding too 
many areas from potential development. Others have opposed the 
Secretary's decision to open up areas that have been, up until 
now, off limits from oil and gas development where the 
environmental damage would be extreme. So the Secretary has 
done her best to balance these competing interests.
    Likewise, the Department's recent decision to approve oil 
and gas development in the National Petroleum Reserve in Alaska 
was criticized on the one hand for approving development near 
an area that the NPRA proposed for protection and criticized on 
the other hand for requiring ConocoPhillips to incorporate 
mitigation measures because of those sensitive areas. So, yes, 
you have a very tough day job.
    Protection of these ecological treasures such as the Arctic 
National Wildlife Refuge is an issue of national importance, 
and I thank you and the Administration for making these 
important decisions.
    As a whole the President's proposed $13 billion investment 
represents roughly a six percent increase over current funding 
levels. It proposes significant funding increases for many of 
the important conservation programs including the Land and 
Water Conservation Fund and the National Park Centennial 
initiative, both very important. I know there are many on this 
Committee who believe that protecting these public lands and 
increasing recreational opportunities are greatly important.
    America's public lands generate over $40 billion of 
recreation use every year, so whether you are visiting a 
national park or hunting or fishing, the opportunities on these 
federal lands are important. We also enjoy the protection of 
our national special places while still maintaining a high 
level of energy production on federal lands.
    The President's budget reflects a strong commitment to 
increasing energy development, and I'm especially pleased to 
see the Department is also increasing production of renewable 
energy resources on public lands.
    I want to bring up something, though, that is missing in 
the budget. Secretary Jewell is taking an important step in 
proposing reforms on how royalties are collected on federal 
resources, but I am concerned that the discussion ends there.
    You can typically lease a ton of coal off of federal land 
for $1.00 or less. The taxpayers get $1.00. Years later we have 
to deal with almost two tons of carbon dioxide from that one 
ton of coal, and the government's current best guess is that 
two tons of carbon pollution will cost the American public over 
$70 in damages.
    Our fossil fuel leasing laws were passed long ago, before 
we knew how bad these impacts were, and I intend to follow up 
on this issue. I know my colleagues, Senators Wyden and 
Murkowski, the GAO, and the Interior Inspector General have 
concerns. Many press articles have been raised about this 
issue, and I plan to raise my own concerns about this as well.
    Similarly, I am concerned that we adequately consider the 
real impacts of climate change on our public lands. This is an 
issue that's important to places like Washington and Alaska, to 
many places in our country. The Tacoma News Tribune recently 
pointed out many of the related climate impacts at Mount 
Rainier National Park--in the past decades about glaciers 
melting and snow pack decreasing as much as 18 percent between 
2003 and 2009.
    These are real issues, everything from mud slurries to 
floods to repairing park infrastructure. We all know historic 
drought conditions in California and the West have now 
demonstrated climate related changes are present challenges to 
businesses, to the government, and to families. Because of this 
I am pleased that the budget includes a 15 percent increase for 
climate related research. I hope that this will help us bring 
better understandings about how to prepare for these issues.
    Similarly, the issue of wildfire impacts throughout the 
community, last year our state experienced one of our worst 
wildfires, the Carlton Complex, which the destruction there 
represents, I think, seven percent of all wildfire destruction 
last year in just this one fire. 156,000 acres burned in 24 
hours--that's approximately five acres a second.
    Again, the micro climates and the changes--we are really 
starting to understand the grave impacts of all of these 
things. My Western colleagues have, in recent hearings, brought 
up various stories. I hope we can get to some of these issues.
    I also strongly support the President's proposal to fully 
fund the Land and Water Conservation Fund and provide a 
permanent mandatory funding stream beginning next year. This is 
something, as I said, many of our colleagues here on the 
Committee agree with but every year Congress appropriates only 
a fraction of the authorized funding. Right now the 
unappropriated balance is almost $20 billion.
    I hope that, since this fund expires in September--we had a 
pretty good vote on the Senate Floor about this--we'll work 
together in a bipartisan fashion to address these issues.
    When I get to the Q and A, I'm definitely going to ask you 
about the Yakima River Basin watershed and the area to protect 
it. After years of negotiation, users of irrigated water such 
as farmers and ranchers, along with tribes and conservation 
groups, planned to develop and utilize, in a better fashion, 
the resources of the Yakima River watershed in a time of 
increased demand and growing scarcity. The reason I bring this 
up is because I believe this effort will be successful. I also 
believe that it is a model for how other watersheds in the West 
are experiencing these challenges and how, if they work 
together and we work with them, we can have better resolution 
of these issues.
    I look forward to discussing these and many other issues 
when we get to the questions. Again, I appreciate your 
commitment and the President's to creating jobs and building 
partnerships, and investing in our public lands for future 
generations.
    Thank you.
    The Chairman. Thank you, Senator Cantwell.
    With that, let's turn to the Secretary for your comments. 
Thank you and good morning.

 STATEMENT OF HON. SALLY JEWELL, SECRETARY, U.S. DEPARTMENT OF 
     THE INTERIOR; ACCOMPANIED BY HON. MIKE CONNOR, DEPUTY 
           SECRETARY, U.S. DEPARTMENT OF THE INTERIOR

    Secretary Jewell. Good morning, Chairman Murkowski, Ranking 
Member Cantwell and members of the Committee. Thank you for the 
opportunity to testify today on the Department of the 
Interior's Fiscal '16 budget request. Joining me is Deputy 
Secretary Mike Connor, who is certainly no stranger to this 
chamber or the Senate.
    I've submitted a detailed statement for the record that 
discusses a number of important investments we're proposing, so 
I'll be relatively brief in these opening remarks.
    This is a forward looking budget that provides targeted 
investments to grow our domestic energy portfolio, creating 
jobs here at home, to build climate resilience and revitalize 
our national parks as they approach their 100th anniversary.
    It invests in science to help us understand natural 
resources on a landscape level and to apply that understanding 
to better manage America's assets for the long term.
    Importantly the budget also helps fulfill our nation's 
commitments to American Indians and Alaska natives including a 
much needed and historic investment to help improve education 
for Indian children.
    I want to first talk about our investments in the lands and 
historic places that make our nation proud and serve as 
economic engines for local communities.
    On the 50th anniversary of the Land and Water Conservation 
Fund Act, the budget proposes full funding of $900 million 
annually for LWCF programs. This is, dollar for dollar, one of 
the most effective government programs we have.
    Next year we mark another important milestone in our 
nation's history. The National Park Service will celebrate its 
100th anniversary, and this budget makes investments to launch 
a historic effort to celebrate and revitalize national parks 
and public lands.
    The discretionary and mandatory portions of the budget 
include a $150 million matching fund to leverage private 
donations to parks and $859 million to provide critical 
maintenance investments in high priority assets.
    Additional funding of $43 million will provide staff to 
improve the visitor experience and support the expected influx 
of visitors during and after the centennial.
    A third milestone we commemorate this year is the 50th 
anniversary of the Voting Rights Act. The budget proposes $50 
million to restore and highlight key sites across the country 
that tell the story of the struggle for civil rights such as 
the Selma to Montgomery National Historic Trail and the Martin 
Luther King Junior National Historic Site.
    One of my top priorities is connecting young people to the 
great outdoors and our rich history and culture. We need to 
inspire and engage the next generation to be scientists, 
engineers and stewards of our nation's most prized assets, 
particularly as 40 percent of the Department's work force is 
soon to be eligible to retire.
    This budget proposes over $107 million for Interior's youth 
programs to provide opportunities for our nation's youth to 
play, to learn, to serve and to work on public lands. We will 
accomplish this through cooperative work with youth 
conservation corps, schools, organizations like the YMCA and 
the National League of Cities, and enlightened private 
businesses that are supporting our efforts.
    Next I want to talk about the Administration's continued 
commitment to tribal self-determination and strengthening 
tribal communities. I recently visited Arizona to launch the 
Administration's Native American Youth Listening Tour, to give 
young people in Indian Country the opportunity to engage with 
Cabinet members directly about the challenges they face. My 
recent trip to the Arctic also included a meeting with youth 
leaders in Kotzebue who are helping their classmates cope with 
personal challenges.
    Across the federal family agencies are committed to working 
together to better coordinate our services to more effectively 
serve American Indians and Alaska natives. This budget holds 
the promise for a brighter future for Indian youth through 
education for Native American communities through economic 
growth and social services and for improving the stewardship of 
trust resources. We're requesting $2.6 billion for Indian 
Affairs, an increase of 12 percent which includes full funding 
of contract support costs that tribes incur as they deliver 
direct services to tribal members.
    When it comes to powering our nation, the budget continues 
to invest in both renewable and conventional energy so that we 
can diversify our domestic energy portfolio, cut carbon 
pollution and reduce our dependence on foreign oil. The budget 
includes $94.8 million for renewable energy activities and a 
total of $658 million for conventional energy programs.
    This budget also invests in science and technology 
initiatives that will support energy development, create 
economic opportunities and help communities build resilience. 
The budget includes $1.1 billion for research and development 
activities that range from scientific observations of the Earth 
to applied research to better understand problems such as 
invasive species and coastal erosion.
    The budget also includes a total of $147 million to fund 
programs that help coastal communities such as Kivalina, Alaska 
where I visited recently and heard directly from residents 
about how they're concerned for their personal safety as 
encroaching storms threaten to wash away their village. Tribes, 
insular areas, communities and land management agencies use 
this science and technology to strengthen climate resilience.
    Finally I want to touch on two other specific areas that 
are impacted by a change in climate, water and fire.
    First, as part of the Bureau of Reclamation's $1.1 billion 
proposed budget to fund Indian water rights settlements, 
ecosystem restoration, healthy watersheds and sustainable 
secure water supplies, the Water Smart grant program would 
receive $58.1 million to address drought and other water supply 
issues across the West.
    And second, this budget renews the call for a new funding 
framework for wild land fire suppression similar to how the 
cost for other natural disasters is met. This is a common sense 
proposal that would help ensure that USDA and Interior don't 
have to rob our budgets for fire prevention in order to fight 
the nation's most catastrophic fires.
    So in closing this is a smart and balanced budget that 
enables the Department to carry out these important missions. I 
look forward to discussing these issues and many other 
important investment proposals in this budget with you during 
your questions.
    Thank you.
    [The prepared statement of Secretary Jewell follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Secretary. We will now go to a 
round of questions.
    My first question, Madam Secretary, relates to production 
on Alaska lands. As I mentioned in my opening statement, I am 
frustrated. I am very frustrated with the delays, the denials, 
and the restrictions that we continue to see from the 
Department of the Interior.
    When you came before us as a nominee back in March of 2013 
you made a specific commitment to me. You said, and I am going 
to quote you here, that ``we are supporting the desire that we 
discussed to continue to keep the Alaska pipeline full.'' Do 
you know where we are in terms of the maximum capacity of the 
Trans-Alaska pipeline versus what we are seeing go through the 
line on a daily basis? Are you aware of that?
    Secretary Jewell. Yes, Senator, I am.
    The Chairman. And you are aware that we are less than half 
full?
    Secretary Jewell. I am aware of that.
    The Chairman. I guess the question is pretty direct. Do you 
believe the actions we have seen out of the Department of the 
Interior of late are helping to keep the Alaska pipeline full 
when NPRA withdrawals have moved forward, when the direction at 
the end of January to put ANWR into the 10-02 area and 98 
percent of ANWR into wilderness area, with indefinite 
withdrawals in the OCS? Do you think that is consistent with 
trying to keep the Trans Alaska oil pipeline full?
    Secretary Jewell. Senator, I am fully committed to 
supporting the efforts in the North Slope of Alaska to keep the 
Trans Alaska pipeline full. As you know, I worked on that 
pipeline as a college student. As a petroleum engineer I 
understand how fields peak and Prudhoe Bay oil field and 
related oil fields have been past their peak production for 
some time. I'm aware of that.
    We have, as you know, supported development in the National 
Petroleum Reserve. 72 percent of what is estimated to be the 
recoverable oil is in areas that are open for leasing. We've 
doubled the frequency of leasing in the NPRA lands under this 
Administration, and we have recently approved ConocoPhillips' 
preferred proposal for drilling in the National Petroleum 
Reserve.
    Offshore, 90 percent of the estimated recoverable oil and 
gas will be available for leasing in the Beaufort and the 
Chukchi Seas. We took 25 miles off the table because of whale 
migration based on a request from native communities. The Hanna 
Shoal area, which has a handful of validated, existing leases, 
will remain.
    The balance of it we took off the table because it is very, 
very sensitive ecologically. We took other areas in the Barrows 
Canyon and off Kaktovik because of village concerns about 
subsistence, largely whaling.
    The Chairman. But you would recognize----
    Secretary Jewell. So 90 percent is----
    The Chairman. Secretary, particularly as it related to the 
Hanna Shoal, in terms of consultation, most specifically with 
the whalers who use that area, they saw no consultation, that 
is part of their frustration, that areas that are then put into 
indefinite withdrawal are done so without consultation. It is 
more than just making leases, available. If access is denied to 
those leases, it doesn't make any difference whether or not you 
have sold those leases, it's all about being able to access 
them.
    Let me move to a second question here. This relates to my 
ongoing frustration on behalf of the people of King Cove. You 
made the decision to abandon the opportunity for a roughly 
three hundred to one exchange to facilitate a ten mile, one 
lane, gravel, non-commercial use road so that that isolated 
community could gain access to an all weather airport. You made 
that decision December 23, 2013. Do you know when King Cove saw 
its most recent Medevac?
    Secretary Jewell. I'm not aware of their most recent 
Medevac.
    The Chairman. It was Sunday night. Do you know how many 
Medevacs have been carried out so far in 2015?
    Secretary Jewell. I do not.
    The Chairman. There have been 5 already this year. Do you 
know how many Medevacs were carried out last year?
    Secretary Jewell. No.
    The Chairman. There were 16, 6 were Coast Guard, and 10 
were non-Coast Guard. Do you know how many Medevacs have been 
carried out since you rejected the road?
    Secretary Jewell. No.
    The Chairman. 21 Medevacs, 7 Coast Guard, 14 non-Coast 
Guard.
    Now as you and I know it is not the Coast Guard's mission 
to provide Medevac services, but they do it because they are 
the only ones available to get in. The easiest, most direct way 
to help save these lives would be this one lane, gravel, non-
commercial use, ten mile road that you continue to just ignore.
    The question to you is what have you included within this 
budget to help the people of King Cove? What have you actually 
done over these past 14 months to fulfill the promise that you 
made because you said that you've concluded that other methods 
of transport remain that could be improved to meet community 
needs. What has been done to help the people?
    Secretary Jewell. I'm over time. May I have a few minutes 
to answer?
    The Chairman. Please.
    Secretary Jewell. As we've talked, Senator, we have engaged 
conversations with the Corps of Engineers about alternatives, 
negotiating a MOU with them. It is, I think, approximately 40 
miles between King Cove and Cold Bay if you drive there. It's 
ten miles through the refuge. The balance is----
    The Chairman. We already have most of that road built.
    Secretary Jewell. And as I have spoken with people in the 
community, when you and I were both there, it is very difficult 
in harsh weather conditions to move around that territory, 
period.
    So I have worked with the Corps of Engineers. We're 
continuing to do that, to look at alternatives such as 
helicopter services between Cold Bay and the end of the road 
that is built, as you referenced, because the topography is 
quite different from the King Cove airport.
    We are willing to work with the community on other water-
based transportation methods to cover that six miles from the 
end of that road to Cold Bay. But Senator, to suggest that the 
Izembek Refuge is the same as other lands, acre for acre, is 
inaccurate. It is a very unique----
    The Chairman. 300 to 1. Madam Secretary, in all respect, to 
suggest that you are going to be able to count on the Coast 
Guard to establish some kind of a base there in Cold Bay to 
provide for Medevac service is not realistic. It is not 
rational. The Coast Guard knows that, and you know that.
    Fourteen months have now gone by, and we do not have 
anything in the budget to address it, as you have promised you 
would do. In the meantime, 21 Medevacs have taken place. 21 
Medevacs to pluck people out of harms way. A ten mile, one 
lane, gravel, non-commercial use road could help save these 
lives without endangering lives and diverting resources.
    We have got to keep working on this, Madam Secretary.
    Senator Cantwell.
    Secretary Jewell. Senator, I recognize this issue and also 
having visited Kivalina, I recognize that this is not a unique 
situation, that there are many villages that struggle in the 
case of medical evacuations. I appreciate that it is part of 
our job to work on that, and I will continue to work with you 
on that.
    The Chairman. That is true that there are many villages, 
but there are none, none, have ready access to an all weather 
airport right there.
    Senator Cantwell. I think we should talk to the Senator who 
heads up the Appropriations Interior Committee about what we 
could do.
    The Chairman. I think so.
    Senator Cantwell. I am just pointing out that in 1998 we 
appropriated $37 million to provide a hovercraft to link King 
Cove and Cold Bay, so I think that was something that Senator 
Stevens and the Clinton Administration worked on. Maybe we need 
to look at something in that area for the future.
    I want to turn to this issue that we are seeing in so many 
Western states. Maybe Deputy Secretary Connor wants to address 
this issue because I am pretty sure you visited with 
Congressman Hastings and myself and the then Interior Secretary 
at the Yakima Basin project. But it does reflect so much of 
what we are asking people to do. I mean the integrated plan is 
part of an ongoing water enhancement program through the Bureau 
of Reclamation.
    So my question is what do we need to do to, not only using 
the resources to implement this plan through the Department of 
the Interior, but providing adequate levels of funding, not 
just for projects like the Yakima Basin, but for other areas as 
well. You could say the same of Klamath. You could say the same 
of, I'm assuming, California has more than the San Joaquin 
issue, that there's many of these issues. What do we need to do 
knowing that we are facing serious drought in these areas?
    Mr. Connor. Thank you, Senator Cantwell.
    You're absolutely right. Yakima is a great model of what we 
need to be doing from a strategic standpoint of the federal 
government working closely with the state and all the different 
constituencies in developing a plan of action to deal with the 
long term imbalance between water supply and demand in the 
Yakima Basin.
    I think the Bureau of Reclamation's Basin Studies Program 
which helped fund a lot of the planning activity with respect 
to Yakima has developed an overall strategy that, when 
implemented, will benefit the environment, the tribes as well 
as the large scale agriculture that exists in the basin itself.
    As you highlight and hint at it, it's a very expensive 
plan. I think overall it's $3 to $5 billion over a 30 year 
period, but over that timeframe, hopefully, and we know the 
state has stepped up to the plate very significantly in the 
Yakima Basin with over $100 million that it's appropriated to 
the effort. Reclamation is increasingly, incrementally, 
investing more of its resources in addition to, I think, a 
couple of years ago its long standing Yakima Enhancement 
Program. It's now funding studies and activity related to a 
couple of the storage and fish passage projects.
    But the bottom line is it's hard to see where the whole sum 
of the resources are going to come from with respect to Yakima 
or California or the Colorado River Basin, Middle Rio Grande, 
all these areas that need a large number of investments. I 
think it's going to be a combination of states increasing their 
support for water resources infrastructure. The State of 
California just recently passed an $8 plus billion bond to 
invest in water resources infrastructure.
    Reclamation has gotten very good support in its budget to 
increasingly invest in the strategic planning as well as some 
of the activity that comes out of that plan in the 
infrastructure investments that need to be occurring, but it's 
pretty daunting overall. I think Reclamation gets about $1 to 
$1.1 billion per year. It's got probably a $6 billion plus 
backlog in its various programs whether it be river restoration 
activities, new infrastructure, dam repair and rehabilitation 
that needs to be done, as well as the conservation initiatives 
that are yielding and leveraging a substantial amount of non-
federal dollars. We're making steady progress, but we're not 
making progress by leaps and bounds.
    Senator Cantwell. Do you think that some of the solutions 
that are being talked about are positive solutions?
    Mr. Connor. Oh, absolutely. I think some of the solutions, 
more and more it's a balanced approach.
    Take the Yakima Basin, we're looking at water supply 
projects. I think the Yakima integrated plan came out of the 
Black Rock Dam proposal. And looking at it and evaluating the 
feasibility of whether people could pay for that, it was 
questionable from a feasibility standpoint. And so the parties 
went back to the table and have developed a collective set of 
actions that deal with environmental issues, that deal with 
fish passage issues, that deal with storage and deal with water 
delivery. And it's that mix of projects in the Yakima Basin, 
the Colorado River Basin and California, that are going to be 
the key to moving forward. You know you're never going to get 
100 percent consensus on water issues, but you're going to be 
able to make progress by bringing a number of people to the 
table.
    Senator Cantwell. I guess my point is this, what we've seen 
is a lot of legal cases that people have decided didn't turn 
out the way they wanted, but a lot of the parties haven't 
walked away from the table. So I applaud Native Americans in 
Oregon for saying even though they won in court about their 
water rights, they're still willing to agree to work together 
as a community. That's the most positive thing.
    Tribal leaders, farmers, everybody is working together. And 
at the same time we've seen these drastic changes in climate 
and more drought. I don't think these solutions are the 
yesterday's solutions. I guess that's the key. Why I asked you 
about that is because I think some of the ideas that people are 
putting on the table that farmers and tribal members can agree 
to are the types of projects we should be supporting.
    I know many of my colleagues on this Committee have similar 
issues in their states, so I hope that we can look at this 
further.
    I know my time is expired, Madam Chair.
    The Chairman. Senator Barrasso.
    Senator Barrasso. Thank you, Madam Chairman.
    Madam Secretary, thank you for being with us.
    In 2013 you testified that Wyoming is ``a good example of a 
state that is doing an effective job regulating hydraulic 
fracturing.'' You testified that Wyoming has ``great, 
sophisticated hydraulic fracturing regulations.'' Since then 
Wyoming has only strengthened its hydraulic fracturing 
regulations. For example, we now require baseline ground water 
testing before and after hydraulic fracturing takes place. It 
also requires additional disclosure of hydraulic fracturing 
fluids.
    Now BLM is soon going to issue a final rule for hydraulic 
fracturing on federal land. I question the need for BLM's role 
in states like Wyoming which already regulate hydraulic 
fracturing on federal land.
    So my question. Will BLM allow Wyoming and other states to 
apply for and obtain a variance from its rule so it can avoid 
duplicating state regulations?
    Secretary Jewell. Thank you, Senator Barrasso. I stand by 
my comments. Wyoming has done a very good job in providing 
regulations that are forward thinking, and we've learned from 
Wyoming as well as some other states.
    Our proposed regulations say that if a state's rule is 
stronger than the proposed federal rule the state's rule will 
govern. That is, in fact, the case in some elements that you 
just referenced in Wyoming.
    I don't know that there is anything in our proposed rule 
that is more stringent than Wyoming's rule, so I'll have to 
look into whether a variance would be even on the table as it 
relates to Wyoming. I think that we want to provide certainty 
to industry. We don't want to make the regulations complicated. 
So if that's something that the state would want us to 
consider, it's certainly something that I'd ask BLM to look at.
    The goal, however, is to provide minimum baseline 
standards, and many states are not sophisticated like Wyoming. 
These activities are relatively new. Their regulations have not 
kept up, if they have them at all. And so for federal and 
tribal lands we're really looking at baseline standards, 
learning from folks like you.
    Senator Barrasso. Let me move to the Endangered Species 
Act. The Endangered Species Act states that you, the Secretary 
of Interior, shall by regulation determine whether any species 
is an endangered species or a threatened species. Last year 
Congress passed the Fiscal Year 2015 Appropriations bill. The 
bill states that you may not use any funds to write or issue a 
proposed rule for Greater Sage Grouse. That's what it says.
    Last month in a letter to Wyoming Governor Matt Mead, you 
wrote that the Appropriations bill, ``does not affect Fish and 
Wildlife Service's court-ordered obligation to make a 
determination by September 30th of 2015 as to whether the 
Greater Sage Grouse does or doesn't warrant protection under 
the Endangered Species Act.''
    So with all due respect I can't make sense of your letter, 
and I find your plans to ignore federal law troubling. So the 
question is please explain how you can list the sage grouse 
without first issuing a rule?
    Secretary Jewell. Thank you, Senator.
    I know these are legal nuances that I am learning myself. 
We are required under court order to make a determination of 
whether a listing is warranted or not, through the Fish and 
Wildlife Service. We would not have any funding to prepare a 
rule so we have to make a determination by court order, but we 
cannot, if we make a determination that is threatened or 
endangered and believe me, I hope we won't get there because of 
the great work that's going on with the states involved in the 
sage grouse.
    But if a listing were warranted the Fish and Wildlife 
Service could say a listing is warranted, but they could not 
write a rule that indicates what that means. So we certainly 
fully intend to comply with the law but it doesn't stop them 
from making the determination, just writing a rule that says 
then what?
    Senator Barrasso. So is it your view then that this so 
called determination would be legally binding?
    Secretary Jewell. You know, I'd have to defer to the 
solicitors. It's a determination, but the rule is what would 
determine what happens next. And we are bound by court to make 
a determination and bound by law to not write a rule.
    So I am working very hard to support the state's efforts 
and the federal government efforts so that a listing is not 
warranted. So we don't have to call the question on this issue.
    Senator Barrasso. I have a final question on President 
Obama's so called strategy to reduce methane emissions.
    As part of that strategy the BLM plans to issue new 
regulations for venting and flaring of natural gas on federal 
land. Absent in the strategy is any effort to actually make it 
easier to get permits of natural gas gathering lines. Gathering 
lines are the pipelines which collect and then transport that 
natural gas from wells to processing plants. They are necessary 
to reduce the venting and the flaring of natural gas. We've 
introduced legislation in the past to make it easier to do 
those sorts of things.
    A principle reason why natural gas is vented and flared in 
the West is the BLM is failing to permit gathering lines in a 
timely manner. So if just BLM gave the permits for the lines 
that would reduce the flaring on and off of federal lands, do 
you know if BLM is trying and doing all it can to expedite the 
permitting of natural gas gathering lines and what specific 
steps BLM is taking?
    Secretary Jewell. Yes, Senator. We are very committed to 
gathering the gas and not to resorting to venting and flaring 
as is happening.
    I am not aware of circumstances where permits have been 
slowed down by the BLM, but I will say our resources are 
constrained. We're asked to inspect wells. We're asked to 
approve permits to drill, and we've had a real challenge in our 
budget with sufficient resources to do what's expected of us. 
So I would appreciate any support that you could provide in 
making the case for why it's important that we resource BLM 
appropriately because we completely agree that the best thing 
to do with this natural gas is to gather it and sell it in the 
market.
    Senator Barrasso. Thank you. Thank you, Madam Secretary.
    Thank you, Madam Chairman.
    The Chairman. Senator Hirono.
    Senator Hirono. Thank you, Madam Chair.
    Secretary Jewell, I want to thank you for your 
extraordinary commitment to protecting, in particular, I do 
represent Hawaii, Hawaii's natural and cultural treasures in 
the President's budget using the Land and Water Conservation 
Fund which you highlighted in your testimony and saying that 
the fund supports 105 projects in 39 states including in Alaska 
and Hawaii.
    Particularly for Hawaii, the Hawaii Volcanoes National Park 
and the Hakalau Forest National Wildlife Refuge are the number 
one land acquisition projects for the National Park Service and 
the U.S. Fish and Wildlife Service in Fiscal Year 2016. This 
effort has taken us a long time to get to the point where these 
projects are the top priority ranking, so I want to commend you 
for working with us over a period of time to get to where we 
need to get to. I realize that the President's budget calls for 
full funding of this fund.
    I wanted to ask you how important is Congressional action 
in making sure that the LWCF funds are more consistent because 
you keep asking for full funding. We keep not giving you full 
funding. Full funding is about, what is it, about $900 million? 
And we give you maybe $300 million, $400 million. How important 
is it for us to provide you with more consistent and better 
funding over a longer period of time to allow the Department to 
plan and execute these projects effectively?
    Secretary Jewell. Thank you very much, Senator Hirono.
    There's no question that 50 years ago Congress was very 
visionary when they passed the Land and Water Conservation Fund 
Act. They recognized that as we drill for oil and gas in 
federal waters offshore, that there is some impact. And they 
believed that that impact should go to benefit all states 
through the LWCF.
    Not only does every dollar invested in LWCF provide a very 
strong return on investment, but we have many willing sellers 
of land, in holdings within National Parks, access areas so 
hunters and fishermen can get to the waters or the hunting 
lines that they have, important areas for conductivity and 
ecosystems that you referenced like those that you talked about 
in Hawaii.
    This has been used successfully over 40,000 times. It has 
benefitted 98 percent of the counties in this country, and we 
think it's a brilliant piece of legislation that has worked 
well.
    So I want to complement many members of the U.S. Senate for 
their support for reauthorization of the Land and Water 
Conservation Fund. I appreciate the President including full 
funding, not just in this budget request, but in the last two. 
I would hope that given what we know about the impact of oil 
and gas activities, based on the revenues that we get from the 
Gulf of Mexico, $14.7 billion in revenues that this Department 
collected, largely from offshore oil and gas that we could have 
that permanently go into this fund so that those willing 
sellers know that they'll have an opportunity to sell that 
land.
    Senator Hirono. I'm glad that you noted that there are 
willing sellers, but they're not going to wait forever. So the 
sooner we move ahead with funding this fund, the better off we 
will be.
    I want to get to the issue of compact migrants and our 
compact agreements. Hawaii is the state that is most impacted 
by the three compacts of free association that the United 
States has entered into with Palau, the Marshall Islands and 
the Federated States of Micronesia. Our state is tremendously 
impacted by the compact migrants in terms of our health care, 
education and housing needs.
    With regard to Palau, however, I am aware that we are to 
provide some $17 million to Palau over the next ten years to 
effect, keep our part of the bargain with Palau. I know that 
the Interior Department has come up with some $8 million on a 
yearly basis, but how are you doing in getting the other 
Departments, who have been part of the compact, particularly 
with Palau, in coming up with the full $17 million over the 
next ten years? And I'm talking about the Department of Defense 
and State Department.
    Secretary Jewell. Thank you, Senator Hirono.
    Compact impacts are very significant, as you point out. 
Hawaii and Guam have the biggest hits. We're limited to $30 
million, and we'd like to see that cap raised.
    The President's budget requests mandatory funding for the 
compact impact and requests that you consider raising that cap 
because it is a huge impact on Hawaii, Guam and FSM, Federated 
States of Micronesia, to deal with this.
    As far as Palau is concerned, yes, we want to work 
collectively with the Department of Defense and the State 
Department. We need your support for a solution from a funding 
standpoint to the Palau compact. I know that there have been 
various funding sources considered by this body. Helium was one 
of them. We sent that to other places including legacy well 
clean up.
    We request your support in getting funding to address our 
government's obligations to Palau. I don't have a lot of 
influence with the Department of Defense and the State 
Department, but it's certainly on their radar and on mine and 
we would appreciate your help in moving that forward.
    Senator Hirono. Thank you very much.
    Madam Chair, I just want to say that for a nation like ours 
to not meet our obligations to a small entity such as Palau 
that amounts to only $17 million a year is really, in my view, 
unconsciousable and we should move forward with that funding.
    Thank you.
    Secretary Jewell. We agree. Thank you.
    The Chairman. Senator Hirono, thank you for bringing that 
up. This is something that we do need to find a resolution for, 
and it has been somewhat discouraging to me that State 
Department and the Defense Department have been very uncreative 
in trying to find some solutions. So we'll work on that.
    Senator Cassidy.
    Senator Cassidy. Thank you.
    Secretary Jewell, I'll begin with a statement. I am 
incredibly, I cannot put enough hyperbole in front of this, 
opposed to the Department's budget proposal to deprive the Gulf 
Coast states of the revenue promised under the Gulf of Mexico 
Security Act. Monies by our state constitution we receive go to 
mitigate damage caused by federal mismanagement of our 
wetlands.
    Now in Louisiana we are experiencing unparalleled loss of 
land.
    [The information referred to follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Cassidy. This red area is what we are losing. Down 
here, this results from channeling, levying the lower 
Mississippi for the benefit of commerce for the rest of the 
country.
    Now this has taken a once growing, delta plain and it's 
caused the greatest source of wetlands lost in the history of 
our country. We were told ten years ago, bipartisan, that we 
could count on a portion of oil revenue to restore this 
coastline.
    Can I see the next chart, please?
    [The information referred to follows:]

   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Cassidy. And what is at stake? This is a result of 
that coastal loss. Placquemines Parish where, I'll hold this up 
now, Placquemines Parish, which has lost this much land, now 
can no longer protect itself with wetlands from that surge. In 
the upper corner is the FEMA director looking at the flooded 
area in St. Tammany Parish. This all is Placquemines Parish.
    Those are working families. Working in industry that 
literally fuels the rest of our country. They're relying upon 
this revenue to rebuild this land so that they can continue to 
live there.
    Now over the last three years, I'm going to point out, the 
Federal Government has taken in $22.3 billion from leases in 
this area, and the four Gulf Coast states most affected by this 
have received $4 million, 0.2 percent. Now frankly, I don't 
know how the Administration has gotten at this goal.
    I will point out that the Gulf Coast states and the 
offshore waters have over the last few decades produced 
billions of barrels of oil, trillions of cubic feet, but with 
that there is a cost associated, and for us to support this 
infrastructure we need to rebuild our coastline.
    To speak of the infrastructure ignores the individual 
family that just lost everything. The Obama Administration's 
goal to take this away reminds me of a quote from Joseph 
Heller, ``Mankind is resilient. The atrocities that horrified 
us a week ago become acceptable tomorrow.''
    Hmmm. If way back when, when this was channeled we had 
known that these homes would be destroyed because of that land 
loss maybe we wouldn't have done it. Now it becomes acceptable 
to take that money away and to allow these families to continue 
to be adversely affected.
    By the way, it's not just an irate Senator. Let me read a 
quote put out jointly from the Environmental Defense Fund, 
National Wildlife Federation, National Audubon Society and the 
Lake Pontchartrain Basin Foundation, ``They are disappointed by 
the budget's proposed version of critically needed and 
currently dedicated funding for coastal Louisiana in the 
Mississippi River delta. This proposed budget undercuts the 
Administration's previous commitments to restore critical 
economic infrastructure and ecosystems in the Mississippi River 
delta where we are losing 16 square miles of critical wetlands 
every year, a preventable coastal erosion crisis.'' These are 
the environmentalists.
    When I go back to Louisiana, in fact there's a headline 
recently I read, ``Does President Obama hate Louisiana?'' If 
you are this person in that home, that is a question you are 
asking when the money we were going to use to build back the 
wetlands is being taken away.
    Now, in that is a question. Don't you care about these 
families? It doesn't appear that you do. Your thoughts?
    Secretary Jewell. Thank you, Senator. Of course I care 
about those families, as I do about many families in coastal 
communities that are experiencing dramatic impacts.
    The President's proposed budget says we should revisit the 
revenues from federal waters, offshore, beyond state waters for 
the benefit of all American people.
    Senator Cassidy. Revisit means take it away from the 
coastline that will be rebuilt. Let me go back to the other 
quote. ``Mankind is resilient. An atrocity a week ago is 
acceptable now.'' This is an environmental atrocity, and now 
you're saying let's revisit.
    I can tell you these families don't think he cares. And why 
should they? Maybe that should be my question? Why should these 
families think he cares about them?
    Secretary Jewell. Madam Chairman, may I respond?
    The Chairman. Yes, ma'am.
    Secretary Jewell. Sir, we are balancing the assets of all 
Americans, and they can be for the benefit of Americans that 
are greatly impacted. We do have billions of dollars going into 
Gulf Coast restoration, as you know, in large measure because 
of the very unfortunate oil spill.
    Senator Cassidy. That is an unrelated incident. That was 
Macondo which also goes to Florida. That is unrelated from this 
40, no 80-year process. Totally unrelated.
    Secretary Jewell. And if I may, sir, I've seen where MR-GO, 
which stands for Mississippi River Gulf, something or other, 
when it was closed by the Corps of Engineers the beaches began 
to accrete. And I saw that when I was down there with the 
Chandeleur Islands and so on.
    Senator Cassidy. So here is that green. And this is MR-GO. 
That is not at all adequate for that.
    Secretary Jewell. Understand that, sir. My point is that 
what has happened there has taken many years and it has been 
the result, largely, of how we have channelized the Mississippi 
River as you brought out in your comments.
    We certainly support Gulf Coast restoration. We're working 
on Gulf Coast restoration. This is a proposal by the 
Administration for consideration about whether the revenues 
from the Outer Continental Shelf that are national assets 
should be focused on four states or should be broader applied. 
And certainly----
    Senator Cassidy. We are over time, so let me just conclude 
with this. Thank you for your indulgence.
    I will point out that the last three years all the states 
have received $22 billion and the four Gulf Coast states, $4 
million. Now we are talking about $375 million out of $22 
billion. It doesn't seem much to ask.
    Thank you. I yield back.
    The Chairman. Senator King.
    Senator King. Thank you, Madam Chair.
    To the Senator from Louisiana, I can assure you that this 
is very important to all of us in the country. I have good 
friends, environmental friends and family in Louisiana, I know 
that the loss of coast down there is an extremely serious 
problem, and I appreciate your raising that issue.
    Madam Secretary, just to get back to the budget for a 
minute. How does this budget line up with the sequester and 
with the 2011 budget caps?
    Secretary Jewell. I'm actually going to ask Mike to take 
that as we've gone back and forth on who answers what.
    Senator King. Thank you.
    Secretary Jewell. Mike.
    Mr. Connor. Senator, yes, the budget would reverse the 
sequester. It would undo the sequester, and I think that's the 
fundamental aspect of what the President is looking for.
    We certainly have, since the 2013 agreement on the budget, 
this economy has started to rebuild, restore and grow very 
significantly. We do not want to go back to sequester. We think 
that the assuredness of the budget and the investments, 
strategically, that we can make will keep the economy growing 
very strong. From that standpoint the President has proposed a 
budget that would eliminate sequester and help us move forward.
    Senator King. So it would meet the original 2011 budget 
caps, but not the sequester budget cap. Is that correct?
    There were budget caps and then there was a sequester that 
brought it below. Do you know if it meets----
    Mr. Connor. So it undoes the sequester. I'm not sure with 
respect to the budget caps. Yeah, nominally the budget caps 
will be lower than 2011 still.
    Senator King. Okay. Thank you. To go from the broad to the 
specific.
    Madam Secretary, we had an experience a year or so ago at 
Acadia National Park in Maine, one of the gems of the National 
Park system, which in fact is also 100 years old next year. 
There was a concession which had been held by a local company 
for 80 years that was put out to bid under Congressional 
action. What was surprising to me was that apparently the bid 
result was strictly a matter of lower price and past 
performance and record of performance and local impact and 
those kinds of things didn't count.
    We had a meeting with your staff and discussed this, and to 
my surprise they said, ``yes, that's right. That's the way we 
read it.''
    Are there plans to revisit that process because it worries 
me that a small company is always going to be at a disadvantage 
to a large national company who has full time bid design people 
as opposed to people with local knowledge and again, with a 
high level of performance. Shouldn't that be a factor in 
deciding?
    When I go to buy a car I just don't look at the price. I 
look at the quality and the past performance of that 
automobile. Should not that be part of the process in awarding 
these contracts?
    Secretary Jewell. Senator, I'm not intimately familiar with 
the contracting there. I know you've talked to the Park Service 
about it, and I will say that, as I've looked into the 
concession contracts, there have been requirements placed on 
the Park Service on what they can and can't do with 
concessioners that are quite frustrating in terms of what they 
owe the concessioners over time to change out the contracts.
    It does not work the way it might if one was running a 
business, and part of that has to do with the restrictions that 
are placed on the Park Service in that regard.
    Senator King. Restrictions placed by Congress?
    Secretary Jewell. Yes, I believe so.
    Senator King. If there are such restrictions that you find 
frustrating, please let us know and we'll try to fix them.
    Secretary Jewell. Okay.
    Senator King. I think this is a place where we can, 
perhaps, work together.
    Secretary Jewell. Will do.
    Senator King. A second point about parks and I don't know 
how many I've visited, but a great number. I note in your 
opening statement that your Department is essentially self-
funded. You collect $13.8 billion in fees and you're proposing 
a budget of $13.2 billion, I think.
    I believe there's a lot of money left on the table in terms 
of collection of fees at parks. For example, at Acadia it's 
very difficult for local merchants to sell park passes. I may 
be wrong, but I believe it's impossible to buy park passes 
online. We've actually had visitors say we'd like to pay but we 
don't know where or how.
    I would hope and urge you to have the Park Service visit 
the whole question of fees, how they're collected, bring it 
into the 21st century in terms of online sales, swipe cards at 
access points, because it would be a shame to be cutting park 
service and not doing maintenance if in fact you've got 
customers, if you will, who aren't paying and perhaps would 
even like to be paying.
    Secretary Jewell. Well, I'll just quickly say that the 
Director of the Park Service has revisited the fees charged in 
a number of parks. They've been static for quite a number of 
years, and he has proposed some fee increases that are being 
considered right now.
    Senator King. Well, let the record show I'm not necessarily 
recommending fee increases.
    Secretary Jewell. I understand.
    Senator King. I'm brave, but I'm not stupid. [Laughter.]
    I am suggesting methodology for collecting fees, because my 
impression from working with these issues is there are a lot of 
fees that are already in place that aren't being collected.
    Secretary Jewell. Hmmm.
    Senator King. I've had merchants and we've had visitors 
staying at our inn who say I want to pay to visit Acadia, but I 
don't know how or where. So I'm talking about the mechanics of 
collection.
    Secretary Jewell. Okay.
    Senator King. Rather than the level. If you're leaving 20 
percent of the money on the table, it may be that the level 
isn't as relevant as how it's collected. I've got several other 
questions.
    Secretary Jewell. Please.
    Senator King. Which I'll submit for the record. Thank you, 
Madam Chair. Thank you, Madam Secretary.
    Secretary Jewell. Thank you.
    The Chairman. Thank you.
    Senator Portman.
    Senator Portman. Thank you, Madam Chair.
    I'll continue on this parks discussion. I appreciate what 
Senator King from Maine was talking about in terms of enhancing 
some of the opportunities to get some more money into the parks 
to help with some of the clear issues you've identified in your 
budget.
    I want to back up though and talk a little about the 
Centennial Challenge and some of the initiatives there.
    As you know, Madam Secretary, I have been working with you 
on this. We have talked a lot about how, in 2016, the 100th 
anniversary of the park, we could do some exciting things to 
try to generate more interest in the parks and also to deal 
with some of the budget challenges.
    In 2007 when I was at the Office of Management and Budget 
we launched this Centennial Challenge, we called it, where you 
get the private sector more engaged with the parks. I think 
your former company was part of that. It seems to make so much 
sense to me. Basically you provide a federal match to be able 
to leverage private sector dollars.
    We had hoped to raise $100 million per year over a ten year 
period. Substantial funding that would go toward some of these 
maintenance backlogs and other issues. That was never realized, 
never passed Congress. I'm pleased to see in your budget that 
you all are again proposing something like this.
    I guess my question to you is if you could explain briefly 
to the group here why you think this mandatory federal funding 
is important to incentivize non-federal partners. Maybe you 
could include some of your experience in the private sector?
    Secretary Jewell. Thanks, Senator Portman, and thanks for 
your commitment to the National Parks.
    I did actually work with my predecessor, Secretary 
Kempthorne, on this trying to encourage Congress to pass the 
Centennial Act. The National Park Service is arguably the most 
recognized and valued brand within the Federal Government, and 
certainly a place where people are very, very interested in 
providing support. Research has shown that there is a 
tremendous interest in private philanthropy.
    We also know, and I've done a lot of fundraising myself, 
that a match is a great incentive to get people to give, 
sometimes two, three, four, five times the amount, showing that 
we're putting our money up and the individuals will do so too. 
The budget has in the Discretionary part, $50 million for a 
match and an additional $100 million in the Mandatory proposal. 
We are confident that with a match we can multiply that to 
several times over.
    I think that there are parts of the Park Service where 
people will want to give private philanthropy and other areas 
like some of the deferred maintenance which are probably going 
to be less conducive to that. So our budget focuses our 
resources on those that are less accessible to fundraising like 
the deferred maintenance and would concentrate those matching 
funds on areas like Gettysburg would be a good example where 
private philanthropists have stepped up to help. And we've seen 
that here in Washington, DC as well.
    Senator Portman. It's a real exciting opportunity. I think, 
on a bipartisan basis, this Committee would be very interested 
in working with you on that.
    I am very concerned about the backlog and some of the 
deferred maintenance you talk about. It's a real problem that 
many of the parks, including Cuyahoga National Park and 
Cuyahoga Valley National Park in Ohio.
    Secretary Jewell. Yes.
    Senator Portman. Which is, by the way, one of the top ten 
visited parks in the country and we're very proud of that.
    My question to you is how do you square this backlog and 
the problems we have with just funding what we have with the 
fact that you all continue to promote more workload for the 
National Park Service by expanding the areas of responsibility 
and proposing more stewardship?
    Secretary Jewell. Yeah. Well, this budget proposes, really 
has a proposal, that over ten years would clear up the 
maintenance backlog on the facilities on our highest priority 
assets, those that are going to see the most visitors, those 
that are in the most difficult condition. For example, the Many 
Glaciers Hotel which is a very popular attraction in Glacier 
National Park still has knob and tube wiring which is actually 
not safe.
    So, we have in this budget a proposal to make progress over 
ten years on cleaning all that up. About half of our backlog is 
in roads. We require Department of Transportation funding for 
that. The other half, this will address the highest priority 
assets and give us a good shot in that centennial year of the 
highest of the high priorities and dealing with them.
    So it is a path forward because we recognize that we have 
not kept up, the budget has not kept up with the need.
    Senator Portman. I would say also your transportation 
budget does not provide adequate funding for the roads and the 
bridges and the other infrastructure you all need because a lot 
of it is transportation infrastructure. I hope you pushed for 
that.
    Secretary Jewell. We do.
    Senator Portman. Those efficiency people at OMB who told 
you no. You've got to continue to push for that, and I'm very 
disappointed in the Transportation budget not having more.
    Let me just ask you a question. Let's say that somebody in 
Cleveland, Ohio wants to make a contribution to the Cuyahoga 
Valley National Park to improve a facility. Let's say to add a 
new roof to a building. There are situations like that right 
now at all of our parks.
    How can they do that? Under the current Centennial 
Challenge can they assure that the money that they give to the 
park is going to go to fix that roof?
    Secretary Jewell. Yes, we can do that, and we do it through 
the National Park Foundation or if the Cuyahoga Valley has its 
own friends group, they can go through that mechanism as well.
    Senator Portman. They do have a great friends group, one of 
the best in the country. In fact the woman in charge that is 
head of the national group and has been. But how can they do it 
through the Park Service?
    Secretary Jewell. I'm not exactly sure of the mechanics.
    Senator Portman. I don't think they can.
    Secretary Jewell. You don't think so? Okay, I'll look into 
that.
    Senator Portman. I think that's something that we should 
work on as part of the Centennial.
    I'm already over time, but I would like to issue, if I 
could, some questions for the record with regard to the 
permitting process. I think this is an area where we have a 
great opportunity to do some work on a bipartisan basis.
    Again, Senator King and I and others have introduced 
legislation on this, and let me just put a concern on the table 
and that is how we are dealing with this issue of the Northern 
Long-Eared Bat. In particular your folks at U.S. Fish and 
Wildlife, who are proposing to list the bat as endangered and 
what that would mean for commercial activity. It has nothing to 
do with the issues with the bat. So we'd like to work with you 
on that. I'm very concerned about it.
    Secretary Jewell. May I answer that, just very briefly?
    It looks like the likelihood of the threatened listing and 
the Fish and Wildlife Service has proposed a very broad 
sweeping 4(d) rule which would enable a lot of the same kind of 
economic activities to go forward if that's the case. So that's 
where we are with it. We recognize white nose syndrome is the 
biggest issue.
    Senator Portman. White nose syndrome is the issue. It's not 
development or commercial activity.
    Secretary Jewell. Right.
    Senator Portman. And by the way it's not broad enough to 
encompass what people care about a lot in Eastern Ohio which is 
oil and gas development as well as some other commercial 
activity. So we need to broaden that.
    Secretary Jewell. Okay.
    Thank you.
    The Chairman. Senator Heinrich.
    Senator Heinrich. Thank you, Madam Chair.
    I want to thank you, Secretary Jewell, for your leadership 
around the issue here at the beginning around the Arctic 
National Wildlife Refuge. In my view there are many places in 
our federal estate where oil and gas development are the 
highest and best use of our federal lands. I believe wildlife 
refuges are not among them.
    I want to thank you for recognizing that unique wilderness 
resource that, frankly, belongs to every American.
    We've got two new National Park Service units in my home 
state of New Mexico that passed in the last public lands bill, 
and the local communities that host these new units are 
incredibly excited to see these places finally come to fruition 
after, literally, decades of advocacy.
    At one of those, the Valles Caldera National Preserve, 
management is moving from an unsuccessful, experimental model 
to a more traditional national preserve model under Park 
Service management. What drove that was really a lack of 
adequate public access and recreational opportunities under the 
previous arrangement. But the preserve has a very strong, 
scientifically driven, resource management program that the 
delegation, certainly myself, feel must continue under the new 
management model. In particular, the preserve has been a key 
partner in a collaborative forest landscape restoration project 
in the Jemez Mountains designed to reduce the risk of 
catastrophic fire and to restore forest health after many years 
of relatively irresponsible high grade logging that occurred 
years ago when this land was actually private.
    Adjacent land managers, including several tribes and the 
Department of Energy, have a big stake in making sure that the 
preserve doesn't present a fire threat to its neighbors. As 
management transitions to the Park Service I want to know that 
we can count on this critical restoration work continuing and 
wanted to ask the Park Service, in particular, if the Park 
Service can continue to work with the preserve's existing 
partners, including neighboring tribes, to finish this 
important forest health project.
    Secretary Jewell. I'll certainly ask the team to take that 
into consideration. I think when there's really good 
restoration work going on the ground we have a lot to learn 
from it. I do know budget wise it's a bit squeezed as a lot of 
things are so we need to make sure we've got a source of 
funding.
    Senator Heinrich. Absolutely. There is a source of funding. 
We saw this transition coming, so there is legislative 
authority. It is largely an administrative issue of making sure 
that this moves forward.
    There is funding there, and there is legislative authority 
that Senator Udall led the effort on last year in the budget. 
So we look forward to working with you on this project. It's 
absolutely critical.
    It's unusual in the fact that you have a comingling of 
management between the Department of Agriculture and Interior 
as this transition occurs.
    Secretary Jewell. They've been working closely with us on 
this transition, so we look forward to working with you on 
that.
    Senator Heinrich. I want to go back to the backlog that 
Senator Portman mentioned.
    We hear a lot about the backlog of maintenance on our 
public lands and especially our national parks. Some even claim 
that we shouldn't protect new places like the Valles Caldera or 
the Manhattan Project National Historic Park because of the 
backlog.
    One of the things I wanted to point out was that oftentimes 
that deferred maintenance doesn't come out or shouldn't come 
out of the Interior Department budget or even the Forest 
Service budget, but is actually related to the Department of 
Transportation backlog and transportation backlog that is 
shared between the Department of Transportation at the federal 
level and then state and local responsibilities for 
transportation ways that just happen to be on Park Service real 
estate.
    Can you talk a little bit about what proportion of the Park 
Service backlog is actually a transportation issue that needs 
funding through the Highway bill and other responsibilities 
other than your budget?
    Secretary Jewell. We have, in the Park Service, an $11.2 
billion backlog, that's billion with a B. $5.9 billion is the 
deferred maintenance of the facilities that we're responsible 
for and $5.6 billion is transportation. So just slightly less 
than 50 percent.
    Senator Heinrich. So just under half of that is actually 
not the responsibility of the Department of the Interior?
    Secretary Jewell. That's correct.
    Senator Heinrich. Okay, thank you.
    I am going to leave you with one last issue and that is in 
recent years I have seen sort of a troubling dynamic where 
Congress refuses to provide your agencies with the resources 
they need to manage our public lands. And then when those lands 
deteriorate because of lack of funding and management, Congress 
accuses the agency's mismanagement and claims that the states 
could then do a better job. In fact, I believe that we, in 
Congress, need to do a much better job of providing the 
resources necessary to manage these lands so that they are 
healthy and can make a positive and sustainable contribution to 
the entire American economy.
    Would the President's budget provide the Department with 
the resources it needs to begin to address the broader 
maintenance backlog?
    Secretary Jewell. Do I have time to answer?
    The Chairman. Go ahead.
    Secretary Jewell. Certainly with the National Park 
Centennial we have focused a lot of our energy around the 
National Parks and addressing that maintenance backlog. There 
is a small amount in the mandatory portion of the Centennial 
budget that proposes support for the backlog on other public 
lands, BLM, for example and the Fish and Wildlife Service.
    These public assets, as you point out, are in many cases 
the opportunity that people have to breathe and to experience 
the best of the best of what this country is known for in the 
natural world and also our history and our culture. So it's not 
a budget that fixes all the problems. It's a budget that is a 
step in that direction, and I really appreciate your support on 
that.
    I will say that it is frustrating. I know many, many hard 
working people that are dedicated public servants who are 
working on our maintenance, who are working in interpretation 
and science and law enforcement.
    I met somebody out at Catoctin Mountain Parks which is 
where Camp David is, who was a law enforcement ranger, who was 
cleaning the toilets and actually repairing part of the visitor 
center. And that's where we find ourselves. I won't say this 
budget helps--addresses that completely, but it certainly is a 
step in the right direction.
    Thank you.
    The Chairman. Let's go to Senator Gardner.
    Senator Gardner. Thank you, Madam Secretary, for your time 
today.
    As we talk about the National Park Service's Centennial 
next year I'm excited too, about the centennial celebration 
this year of Rocky Mountain National Park. I'll be introducing 
a resolution to celebrate and commemorate the incredible, 
incredible grandeur of Rocky Mountain National Park. Certainly 
we would invite you and hope that we'll be able to work 
together over the coming months to celebrate the centennial of 
Rocky Mountain National Park together and we look forward to 
that.
    I wanted to talk a little bit about the Arkansas Valley 
conduits, a project in Southeastern Colorado first authorized 
in 1962 under President Kennedy. The project will serve more 
than 40 rural, economically depressed communities in my state. 
Congress passed legislation in 2009 to provide a funding 
mechanism to fully repay the cost of the project, and an 
extensive NEPA process has already been completed.
    Early stages of mapping, design and other reconstruction 
activities are underway as well, and local negotiations have 
led to a significant amount of savings by optimizing existing 
treatment facilities as the project moves forward. But this 
year the Administration's budget request was only $500,000 and 
in 2012 President Obama actually went to Southeastern Colorado 
in Pueblo, Colorado where the project originates and stated 
that the Arkansas Valley conduit would be built. He said it 
will be built.
    Can you help me understand why is the request only 
$500,000? What has happened? And is this project receiving the 
kind of priority that it should in order to be completed?
    Secretary Jewell. On issues like this I turn to the expert 
for the Department. That's Mike Connor, Deputy Secretary. Mike.
    Mr. Connor. Senator Gardner, I've had the opportunity to 
work very closely with your constituents as a staff member on 
this Committee when we passed the legislation as well as 
running the Bureau of Reclamation and getting the record of 
decision and the NEPA work done associated with that.
    It's a very important project. I understand the water 
supply and water quality concerns that your constituents have. 
The bottom line is right now we're trying to plan for a phased 
in development of this project, and it's tough given the 
constrained resources that we have.
    Overall, after getting the NEPA and the record of decision 
down we focused on completing the feasibility work that needs 
to be accomplished. I think overall we're looking at this in 
bite sized pieces. I think that work is going to take about $5 
to $6 million. We managed to, last year, transfer an additional 
$2 million on top of our $500,000 budget request to try and 
accelerate work along those lines. But the bottom line is we 
are in a constrained resource environment. Given the importance 
of that project we will look continually to--within the budget 
and when we can move funds over there, given the priority. I 
think this is the second time we did it now in 2014, we'll move 
those resources over.
    Try and develop then the strategy that I think we've been 
talking about with the stakeholders there which is we're going 
to have a hard time funding the construction. We need to get 
them to the point where we can evaluate all the options and 
that's completing the feasibility work. The State of Colorado, 
I think, has offered a loan which we're thinking may be 
sufficient to initiate construction activity. We're in a 
dialogue now within the Administration and with your 
stakeholders looking at other federal programs, quite frankly, 
and see if we can't, particularly given the water quality 
concerns, if we can't make use of some EPA resources, 
Department of Commerce resources that can go for water 
infrastructure.
    We will continue to work along those lines and try and put 
a patchwork of funding opportunities together with local 
resources that we can move forward.
    Senator Gardner. We'd love to continue our conversation on 
this. As you know it's a Reclamation project and so I know 
there's been talk about cobbling funding together from Commerce 
and EPA and others, but I mean, again, this is and has been for 
50 years a Reclamation project. And we'd like to continue our 
work together on this.
    Shifting now to the sage grouse. The potential sage grouse 
listing in December would have significant effects on 
agriculture, energy, and recreation in Colorado, if it were to 
move forward. We need to balance the needs of our economy, the 
needs of our environment. The State Conservation and Management 
plans, if given the chance to succeed, I believe, will be best 
to protect the species. We've seen in Wyoming where they have 
stabilized, if not grown populations.
    What do you believe needs to be achieved in order to allow 
states to implement their plans for a period of time in order 
for them to determine that they are best at protecting the 
wildlife within their borders?
    Secretary Jewell. Well, thank you, Senator.
    What's happening with the Greater Sage Grouse across 11 
Western states, particularly the core six or seven states is 
unprecedented in the history, really of, the landscape 
management, states working alongside federal partners. The 
reality is it's different state by state, and so no one size 
fits all which is what makes it complicated.
    The State of Wyoming has been doing this for ten years, and 
they have shown a path forward that has been very helpful for 
other states.
    In the State of Nevada, 87 percent of their land is in 
federal/public ownership so it's our plans that are going to 
dictate the health of the sage grouse there and rangeland fire 
is the most important thing there.
    We are trying to strike the right balance every place we 
are with the federal plans, the state plans and the science to 
make sure that we're doing everything we can so that a listing 
of the species is not warranted.
    The Fish and Wildlife Service will need to have something 
they can rely on. In many states we have executive actions that 
the governors have taken that provides that assurance. I've had 
a secretarial order on rangeland fire that provides additional 
assurance to the Fish and Wildlife Service for those areas in 
the Great Basin where fire is an issue.
    Our goal is to provide a clear path forward so that grazing 
and ranching and oil and gas activities can continue but 
continue in a really smart way where we know where the most 
critical habitat is and we know how to protect it. So 
unprecedented effort that's happening and Governors 
Hickenlooper and Mead co-chair the Sage Grouse Task Force of 
Governors. We are at work doing everything we can with them to 
reassure the Fish and Wildlife Service that the bird will be 
protected.
    Senator Gardner. Obviously we have a number of questions on 
this. If I could indulge just one more question then I have a 
number of others. Is that alright, Madam Chair?
    The Chairman. Alright.
    Senator Gardner. No, okay?
    The Chairman. Very briefly.
    Senator Gardner. No problem. We'll just--I'll just pass. I 
have some other questions we'll follow up with you on.
    Secretary Jewell. Okay. Sounds good.
    Senator Gardner. Thank you.
    The Chairman. I appreciate it.
    Senator Franken.
    Senator Franken. Thank you, Madam Chair.
    Secretary Jewell, thank you for visiting the Bug-O-Nay-Ge-
Shig School up at Leech Lake. As you know from before the time 
you were nominated, I've been raising the alarm about this 
school. I talk to you about it pretty much every chance I get. 
Thank you for going up there. What did you see at the Bug 
School?
    Secretary Jewell. I saw a facility that should not be a 
school. I saw a facility that was converted from other uses 
with inadequate sanitation, small hallways, inadequate heating 
systems and a school that did not convey a sense of support to 
the students who were there.
    I also saw committed teachers. I saw a school that wants to 
retain the cultural identity of the tribe and nurture that. I 
saw their use of the great outdoors, frankly, to do that 
because I was there when the weather was good.
    But this is not a school that I'm proud of or you're proud 
of. It's indicative of the one-third of all schools overseen by 
the Bureau of Indian Education that are in poor condition. I 
want to fix it over the long term. I want to fix the Bug School 
and the rest of them, and we've got a strong commitment in our 
budget to get on that to----
    Senator Franken. Well you have a $59 billion increase for 
Indian school production in the FY'16 budget. That's 
improvement. It's just that it's not enough. I'm glad you went 
there, and I thank you again for doing that. This is just 
unacceptable.
    Our native children have so many challenges that face them. 
If anything we should be giving them better schools than--well, 
we certainly should be giving them better schools than that.
    Secretary Jewell. Yeah.
    Senator Franken. I want to ask you----it will take about 
$25 million to rebuild the Bug School. What does the increase 
in the Indian School Construction Funding mean for the Bug 
School?
    Secretary Jewell. So, the short answer is we have several 
schools remaining on the 2004, so that's now by the time we get 
to this budget, going to be 12 years old, that are prioritized. 
After that we are completely redoing the priority. I am 
confident the Bug School will be on the list of priority 
schools for addressing.
    We're working on a set of objective criteria that is being 
refined right now. I don't have that list, but we expect to 
have it sometime along the middle of the year which will 
prioritize those and put in place a plan to really begin to 
address these over time. It's going to take a long term 
commitment on the part of Congress and a long term commitment 
on our part to address these challenges.
    But having seen the Bug School, you know, it's in bad 
shape. It needs to be replaced. I will tell you that I've seen 
other schools that are in equally bad shape. It just breaks my 
heart that around the country this is what we do in supporting 
an Indian education.
    The prioritized list will be coming out in the middle of 
the year. We'll make sure that you know where that particular 
school is on the list, and there is a good chance in this 
budget that there will be planning and design dollars for a 
number of those schools that are on the highest priority list 
so that we can move them forward very quickly.
    We're learning from the Department of Defense, Education, 
Organization or DoDEA because they had a similar situation. 
They have a pathway forward that over a decade or so their 
schools will be brought up to speed, and we've hired the person 
that did that on our team here to do the same kind of long term 
game plan for Indian schools.
    Senator Franken. Thank you.
    Secretary Jewell. Thank you.
    Senator Franken. One of the other things I've talked to you 
about is Lewis and Clark. The funding levels for rural water 
projects in the Bureau of Reclamation has been a frustration 
also for me, specifically, this project.
    In your budget last year, you suggested that if local 
governments want these projects built faster they should just 
put in more money on top of the legally required local share. 
The State of Minnesota has done that giving the Lewis and Clark 
project $22 million last year which was almost ten times the 
amount of funding that you included in the last year's budget.
    Yet this year you still came back and only requested $2.7 
million for the project. Congress has already demonstrated that 
we can responsibly fund these projects at a higher level 
routinely increasing funding and appropriation bills beyond 
your budget request. These local communities and the state have 
done everything that has been asked of them and more, putting 
more funding than they were supposed to.
    What will it take to get Interior to prioritize these 
projects?
    Secretary Jewell. I'm going to talk very--may I, Madam 
Chairman?
    The Chairman. Please go ahead.
    Secretary Jewell. I'll make my part very brief and turn it 
to Mike for the specifics here.
    We have way more demands than we have funding. Indian water 
rights settlements have taken priority for us, and making sure 
that communities that do not have access to water are 
prioritized and I know you appreciate that. We've talked about 
that before.
    There is some money in the budget for Lewis and Clark to 
continue to make progress, but there's not enough money to go 
around and we have to prioritize.
    Mike, do you want to talk specific to Lewis and Clark?
    Mr. Connor. Specific to Lewis and Clark, yes, we greatly 
appreciate the additional resources that Congress has put into 
the last two budget cycles. We have allocated that funding to 
substantial, I think, three times as much as we had in our 
budget to allocate to Lewis and Clark. So I think in this 
year's cycle, 2015, they've got about $9 million that can be 
coupled up with the local resources and we can make progress 
overall.
    Senator Franken. I don't think that's right.
    Mr. Connor. We had $3 million in our budget and then 
Congress appropriated an additional $30 million, I think, which 
Lewis and Clark got about $6 to $6 \1/2\ million. So that's 
where I get the $9 million figure.
    Senator Franken. Okay, well----
    Mr. Connor. And that was just announced about two weeks 
ago, the additional resources that were provided.
    But you're right about the 2016 budget. This has been one 
where just competing priorities within the Bureau of 
Reclamation we have not been able to allocate funding to the 
rural water program in the way that we would like. These are 
good projects. We certainly invested a lot of Recovery Act 
dollars in them and made some significant progress at that 
point in time.
    But it's one of those that's strained under the budget even 
in a very robust budget with good investments here for the 
Interior Department this particular program is strained, Quite 
frankly, if we end up with sequestration it will get a lot 
worse.
    Senator Franken. Okay. Thank you and thank you for your 
indulgence.
    The Chairman. Thank you.
    Senator Daines.
    Senator Daines. Thank you, Madam Chair.
    Secretary Jewell, good to see you again here today. I was 
back home in Montana last week where it was a whole lot warmer 
than Washington, DC. I had a chance to spend some time with the 
Crow Tribe back there in Montana.
    As you know, unemployment on the Crow Reservation would be 
more than 80 percent if we did not have the mining jobs at the 
Absaloka Mine. In fact, their tribal unemployment is already at 
50 percent. They're very, very concerned at what's going on 
directly right now as it relates to coal development where 
their unemployment, again, would go to 80 percent without these 
jobs.
    It is a significant part of the funding for the tribe and 
the well being and future hope for the tribe. They need access 
to more foreign markets. They need rail import infrastructure. 
I know we're working on the Gateway Pacific terminal approval 
which would allow the Crow Tribe to access some of these 
international markets with their coal.
    So as the Gateway Pacific terminal is going through the 
permitting process, I believe it's important that the 
Department works with all the impacted tribes. There are tribes 
on the West Coast engaged in this process, but I want to make 
sure the Crow Tribe is also having their voice heard in this 
process.
    So really the question is would you agree that it's 
important that we get all the tribes' views on this issue of 
approval of the Gateway Pacific terminal?
    Secretary Jewell. Well, Senator, I'm not familiar with the 
Gateway Pacific terminal, but I will tell you that I'm very 
committed to consulting with tribes on anything that we do that 
impacts them.
    Senator Daines. Okay. Great. I just want to flag that it's 
really important right now as we're looking at the ability to 
grow and take this 50 percent unemployment rate not turn to 80 
percent which is a very real possibility. I hope you will take 
a look at all the treaty rights, not only the West coast 
tribes, but also the treaty rights of impacted tribes including 
the Crow.
    And by the way, next time you come out to Montana we may 
want to take you out to the Eastern side of the state as well. 
I know you had a chance to experience Glacier Park. We love the 
Flathead in Glacier, but it would be good for you to see also 
the challenges out in Eastern Montana related to economic 
despair in many ways in some of these small communities.
    In line of that we are working in Montana on the all the 
above energy strategy as part of our national security and 
energy strategy. Montana is one of the unique states that 
really has the ability to play in the all of the above of 
virtually every energy resource we have in this country.
    Over a third of our hydropower in Montana or a third of our 
power comes from hydropower. More than 50 percent comes from 
coal. We also have significant capacity certainly for wind and 
for solar.
    I'm concerned though this all of the above energy portfolio 
that's described, sometimes we hear a message from the 
Administration it's all of the above except for coal and oil 
and even sometimes natural gas. We're very concerned that the 
Administration does not share the same all of the above vision 
that we share back home.
    As we look at approval of drilling permits back home, the 
BLM approved just 26 drilling permits on federal land. The 
State of Montana last year approved 269. So an order of 
magnitude of more permits approved on state and private land 
than on our federal lands. Yet Montana is comprised of a third 
of federal lands.
    I was encouraged by your comment about the sage grouse that 
Senator Gardner was talking about. The fact that a one size 
fits all policy is not going to be the best policy to allow the 
states to have primacy as well.
    In Montana we have a lot of checkerboarding where we have 
BLM. We've got state sections, and we've got federal sections 
in the middle of private land as well. I really hope you will 
allow the states to take the lead on that, work with the States 
of Montana, Colorado, Wyoming, as you alluded to, and not have 
a one size fits all edict coming out of the federal government.
    My question is does the Department of the Interior have a 
plan to increase oil and gas development on federal lands? And 
if so, is there a specific goal?
    Secretary Jewell. Thank you, Senator. I'm going to quickly 
respond on a couple of the other things you mentioned as well.
    Senator Daines. Thank you.
    Secretary Jewell. First, I've been to Fort Peck, been to 
the Crow, been to Eastern Montana, so not just Western Montana. 
I very much appreciate the challenges that many of those tribes 
face. We are working on a hydro project as well with the Crow. 
They have some frustrations with the Bureau of Reclamation. 
I've got both sides of that, and we'll work on that.
    Senator Daines. Great, thank you.
    Secretary Jewell. And the treaty rights are--I'm very, very 
committed to upholding those, as I'm sure the tribes would tell 
you.
    Senator Daines. Yes.
    Secretary Jewell. As it relates to energy development we 
don't have a specific goal on what the energy development is, 
but we do want to facilitate the development on public lands. 
We have continued to process APDs, authorizations for permits 
to drill, in a number of states. And of course, what would be 
very helpful to us is the ability to match supply and demand. 
Where is the drilling activity and can we have the resources so 
that we can not only write those permits, but also do the 
needed inspections?
    We were written up by the GAO for not doing appropriate 
inspections on the 100,000 wells that the BLM is responsible 
for overseeing, so there is a request in the budget to be able 
to charge a modest fee to industry to cover that, as they do 
already offshore. I don't think we'd have significant 
objections.
    That's just something I would ask of you because that will 
help us move the drilling permits through, move the inspections 
forward so that we can make sure there's a fair return for the 
tribes, for the taxpayers and so on. We have some pilot offices 
that have been funded by Congress. I think that we did get the 
ability----
    Senator Daines. Mile City--we've got one going there.
    Secretary Jewell. Yes, you do.
    Senator Daines. You betcha.
    Secretary Jewell. And a lot of where the permits get done 
has to do with where the demand is from the companies which 
they aren't as much concerned about state lines. We certainly 
are committed to moving forward with due speed on that if we 
have adequate resources. We can spew statistics at you on what 
the BLM has approved, but they are reducing the amount of time 
for permitting. There's a small amount of money in the budget 
to automate the permitting process because right now it's all 
paper based which doesn't serve anyone's interest. We think 
that that will help us speed things up.
    I will also say that coal is an important resource for the 
country. Much of the coal that produces the energy in this 
country comes from your region, more Wyoming than Montana, but 
certainly you both have those assets.
    We do want to make sure there's a fair return for the 
taxpayer, and we've been asked by the GAO to look at this. And 
we're looking at this as well. But certainly all the above from 
my perspective and I think our budget reflects that, means all 
of the above. It means conventional energy as well as renewable 
energy, and we're working on both.
    Senator Daines. Hydro is not a renewable energy source. Is 
that right?
    Secretary Jewell. Hydro is a renewable energy source.
    Senator Daines. By federal definition is it?
    Mr. Connor. It is.
    Secretary Jewell. Yeah, I think so.
    Senator Daines. Okay.
    Mr. Connor. Yes. We have testified several times that hydro 
is a renewable energy resource. We've cleared it through 
everybody.
    Senator Daines. Alright.
    The Chairman. It's a good thing.
    Senator Daines. Not by law though is the point.
    The Chairman. Not by law.
    Senator Daines. Not by law it's not renewable which if we 
scratch our heads out in Montana that we look at this 
incredible renewable resource called hydro.
    Secretary Jewell. Well, you guys write the laws, so----
    Senator Daines. By law it's not, but anyway it's something 
we have to take a look at. Thank you.
    Secretary Jewell. Alright. Thanks.
    The Chairman. Thank you.
    Senator Risch.
    Senator Risch. Thanks much.
    Senator Daines, I was shocked to learn when I came here 
that Congress overrules the laws of nature, and that falling 
water is not a renewable resource. We speak a different 
language in Idaho, I guess.
    Senator Daines. Thank you.
    Senator Risch. Madam Secretary, thank you so much. I want 
to talk about sage grouse, of course. You remember the first 
meeting we had you weren't familiar with the sage grouse. Now 
you are a lot more familiar, I'm sure, than you want to be.
    You will recall the criticism I had at that time, and that 
was that we had two agencies under the Department of the 
Interior, the Fish and Wildlife Service and the BLM. We were 
perplexed in Idaho that you could have two federal agencies at 
odds with each other within the same department, under the same 
head and we just were not making progress, as you recall.
    Your leadership has changed that dramatically, and I am 
happy about that. You remember the analogy I used that when you 
headed REI you would not have allowed your marketing department 
and your accounting department to be at each other's throats 
without the head knocking some heads together and saying look 
guys, resolve this?
    Unfortunately we are drifting again back in that direction. 
Before I get into that let me say thank you for coming to Idaho 
last October. Since the federal government owns two-thirds of 
the state it's only appropriate that you visit us once in a 
while, and we appreciate that.
    We do things differently. I want to commend your 
predecessor Secretary, at that time, Secretary Salazar, for 
inviting states to collaborate on the sage grouse issue. 
Collaboration is a wonderful thing. It works, but it only works 
if people work at it.
    Idaho accepted that invitation, and the governor wisely put 
together a great collaborative group who sat at a table, worked 
on a plan and your Fish and Wildlife Service had a seat at that 
table as we developed that plan. When you came into office that 
was right at the point where, even though our plan had been 
developed and even though the U.S. Fish and Wildlife Service 
had signed off on it, the BLM said, not so fast. I can't 
explain to you how incredibly frustrating that is for us trying 
to save the sage grouse.
    I mean, that's our objective. It is a magnificent bird. It 
deserves the attention of government agencies, and it needs to 
be protected.
    Well, here we go again. On October 27, 2014, Dan Ashe, the 
Director of the United States Department of the Interior, Fish 
and Wildlife Service, wrote a letter to the BLM. Now I don't 
understand why they communicate in such formal fashion. It 
would seem to me a phone call would be good.
    In any event this is how the letter starts: ``Pursuant to 
our October 1st, 2014 leadership discussion regarding the 
federal land management planning process for Greater Sage 
Grouse, etcetera.'' We are ready to go in Idaho. We have got a 
plan. We want to work with the Federal Government on this plan.
    I understand that the Federal Government and the state work 
at different paces, but this letter raises a new issue for us. 
It says, ``This memorandum and associated maps respond to a 
request from the Bureau of Land Management, BLM, to identify a 
subset of priority habitat most vital to the species 
persistence within which we recommend the strongest levels of 
protection.''
    Where did this come from? We have been at this for years 
and all of a sudden here we go. They now identify a focal area. 
We need to get this done. Focal areas, if there was such a 
thing, should have been identified years ago, and they should 
have been incorporated in the plan so we could move forward.
    We want to move forward but this, again, moves the goal 
post. We were down on the one yard line with the ball and first 
down. All of sudden we look and the goal post is way down the 
line.
    We have got to stop this stuff. We need to move forward 
with a finalization for a plan. I know you and I have said, the 
head of the BLM has said, the head of the Fish and Wildlife 
Service has said, oh, yes, but then we're going to get sued.
    Of course we are going to get sued, but we want everybody 
on one side of the table who are pragmatic, who have the goal 
of saving the sage grouse, who have put together a plan that 
will do that on one side of the table and the nutcases on the 
other side of the table who just want to fight.
    This is not helping. Please, use your leadership. Bring 
this thing together and get our plan finalized where we can 
move forward with actual work on the ground to save the sage 
grouse.
    I apologize for the passion with this, but I am telling you 
we are incredibly frustrated when the goal posts keep moving on 
us. We need to get this done, and we need to move forward.
    My time is up, but I would like to get a brief response 
from you about what your plans are to try to help us move 
forward.
    I understand the states are all in a different position, 
and this addressed all states. I wish it would have been state 
by state, and I wish instead at this meeting on October 1st, 
they had invited the Idaho people there to get their hands in 
on this and maybe we would not have wound up where we are.
    Madam Secretary.
    Secretary Jewell. Madam Chairman, may I?
    The Chairman. Yes.
    Secretary Jewell. Thank you. That was October, and now 
we're in February. I will say that incredible cooperation is 
going on between the various agencies. One of the things that's 
very difficult in this job, and Mike experienced it when he ran 
the Bureau of Reclamation, is you've got distinct acts under 
which you operate.
    The Fish and Wildlife Service about long term protection of 
fish and wildlife species and their health within the country. 
The Bureau of Land Management, multiple use and sustained yield 
of the landscapes and sometimes those do conflict.
    We've moved a long way since the letter you referenced. The 
BLM has finalized its plans. They've been working closely with 
the states. They've been working closely with the Fish and 
Wildlife Service.
    Those plans are being finalized right now. I think there 
were 98 of them. Lots and lots of environmental impact 
statements and work that's been done.
    The Secretarial Order on Rangeland Fire, which your 
Governor was very kind at saying some nice words about, is a 
very key element for Idaho.
    Senator Risch. It is.
    Secretary Jewell. For parts of Oregon and certainly Nevada 
as well.
    Those are things the Fish and Wildlife Service will be able 
to write on. So I have encouraged people to stay at the table, 
to not engage at letter writing to the extent that they can 
pick up the phone and call each other. I think that you will 
find that we are on the cusp of something that's pretty 
incredible here because this coalition has come together and 
the states have come together.
    We're very close to the goal line, and the goal line is not 
moving. The goal line is scientific information agreed upon 
between the states and the Fish and Wildlife Service, some call 
it the COT report. We are going to soon have to turn it over to 
the Fish and Wildlife Service to make their determination.
    I feel good about where we are, where the states are. It's 
been a rocky road to get there, but people are at the table 
working hard. And so, I appreciate your passion. I know it has 
not been an easy journey.
    Senator Risch. First of all I appreciate your leadership on 
this. I really appreciate the fact that you understand that you 
have got two agencies that we really need to bring together. I 
can tell you the message you just gave me I will take back home 
to the states. If indeed that is the case, they do not 
understand it yet. Hopefully we will get to some progress where 
they will understand it. Again, I appreciate your leadership on 
it. Please appreciate our problems with this also.
    Secretary Jewell. I do.
    Senator Risch. As we try to move this forward and all of 
sudden we get new terms and new focal areas that nobody has 
ever heard of before, and it is put on the table as we think we 
are at the goal lines.
    So, thank you very much, and thank you, Madam Chairman.
    The Chairman. Obviously a great deal of passion about the 
sage grouse.
    Let's go to Senator Wyden.
    Senator Wyden. Thank you, Madam Chair.
    Secretary Jewell, thank you for being with us. There is 
plenty to say that is supportive of your agenda.
    I just had town meetings across Oregon over the last week 
and there is so much support, for example, for the Land and 
Water Conservation Fund, making it permanent, fully funded. 
Your leadership on that has been especially helpful.
    I want to talk about a couple of issues that are especially 
important to Oregon right now because it would be helpful for 
the public to get a sense of your leadership and what's ahead.
    We finally have a bipartisan bill on Secure Rural School 
which, of course, was written in this room. It was written in 
this room in 2000. Senator Larry Craig, I, and a whole host of 
others were involved, a real life line to resource dependent 
communities for funding schools and roads and police and basic, 
basic services.
    It is particularly important that we get mandatory funding 
for PILT back because, as you know, at the end of the year 
there was this one year arrangement for PILT. A lot of rural 
counties are finding that as a result of the complicated PILT 
formula they're actually getting less money. It is my 
understanding that you're supportive of that.
    Is getting PILT back to being mandatory, linking it to 
Secure Rural Schools the way we did a number of years ago, is 
that correct?
    Secretary Jewell. That is correct.
    Senator Wyden. Okay.
    A second area that is important to my constituents is the 
Klamath. We were thrilled that you came out for our launch, and 
we think not only will this be helpful to Oregon, but we think 
this is a model for people coming together to deal with tough 
water issues in the days ahead.
    Can you all commit that this will continue to be an 
Administration priority? As you know there have been some 
recent developments with respect to the Mazama Forest in the 
Basin. We're going to have to figure out how to ensure fair 
treatment for the tribes. The tribes have really stepped up on 
this issue. Can we count on your support and continued interest 
in this?
    Secretary Jewell. You certainly can, and I want to 
complement you and members of the Oregon delegation as well as 
unprecedented cooperation between the tribes and the ranchers 
and interest that had been on different sides of the table, 
coming together on the Klamath agreement. It would be a real 
shame if this does not get approved through and done.
    Senator Wyden. Well, it's my highest priority for that 
rural area. I mean, they have been so hard hit, and to have the 
farmers come together and the ranchers and the fishing families 
and environmental folks. I think it can, not just help Oregon, 
but be a national model. So we appreciate your leadership.
    Secretary Jewell. I just want to say Mike was very 
instrumental in that.
    Senator Wyden. Mike was.
    Secretary Jewell. And will stay very much at the table on 
that.
    Senator Wyden. Mike made many treks to the Klamath, and we 
thank you for it.
    Let's talk about wildfire funding for a moment. As you know 
the system of funding how we fight wildfires is just broken. 
What happens is prevention gets short changed, and then as a 
result of the prevention being short changed is it's gotten 
drier and hotter. You might have a lightning strike.
    What happens is all of a sudden you've got an inferno on 
your hands, and then government borrows from the Prevention 
fund to put the fire out. Then the problem gets worse because 
we're not giving adequate attention to the Prevention fund as 
we know we need to do.
    There is a bipartisan effort that I, Senator Crapo, and a 
big group of Westerners are part of, a big bipartisan group in 
the House is part of it. Tell us how you feel the increased 
budget certainty provided by this restructuring would help you.
    As you know we've got a favorable score from the Budget 
Office because it really shows how valuable it is to preserve 
the Prevention fund because it means you're going to have fewer 
disasters. But how would this increased budget certainty be of 
value to your agency, Madam Secretary?
    Secretary Jewell. Senator, thank you for your leadership. 
The bill that you put out there with Senator Crapo and the 
companion bill with Representatives Simpson and Schrader have 
been enormously helpful. We are fully supportive of those 
efforts.
    We have, in this budget, about $200 million of the total 
$13.2 billion amount that is part of the Wildfire funding cap. 
It would take the top one percent of catastrophic wildfires and 
put them off as the disasters that they really are, coming out 
of the Disaster Funding cap. That would enable us to work with 
tribes, work with land management agencies, to do the important 
fire prevention and restoration work to prevent wildfires from 
getting out of control.
    By not doing that, as has been the case for a number of 
years, we've spent more and more on suppression and yes, less 
and less on hazardous fuel removal. A great example is the 
Funny River Fire actually in Alaska. Prevention efforts which 
were not federal, I think they were state in that case, but 
prevention efforts protected a community so that we didn't have 
to spend as much on suppression to protect those homes or to 
risk those homes going up in smoke.
    We see this all over the place. In the case of the sage 
grouse, being able to proactively reduce the risk of rangeland 
fire is critical to habitat protection. And so, there's no 
question we will put the money to good use which would 
ultimately reduce our cost of fighting wildfires.
    Senator Wyden. Madam Chair, can I get one last question in 
very quickly?
    The Chairman. Very quickly.
    Senator Wyden. On the question of coal and coal royalties.
    As you know I've been concerned for some time that 
taxpayers aren't getting their fair share of royalties from 
coal mined on public lands. And we began, when I was Chair of 
this Committee, an investigation into it. Senator Murkowski and 
I co-authored a letter to you all that the issue be researched.
    I'm encouraged by the rule that you all have put out to 
stop companies from using subsidiaries to dodge the royalty 
payments. I think we may need to go further. We're getting 
additional information, and I think it would be very helpful if 
you could review a recent report by Headwaters Economics on 
this.
    Madam Chair, if we could put that report in the record that 
would be good.
    The Chairman. So moved.
    [The information referred to follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Wyden. I'll just wrap up with that request.
    Madam Secretary, if you and I could have further 
conversation on this I'd appreciate it.
    Secretary Jewell. I'd be delighted. Thank you.
    Senator Wyden. Thank you, Madam Chair.
    The Chairman. Thank you, Senator Wyden.
    Senator Lee.
    Senator Lee. Thank you, Madam Chair, and thank you, 
Secretary Jewell, for joining us today and for all you do.
    I want to talk to you about the PILT program for a minute, 
Payment In Lieu of Taxes. On the Department of the Interior 
website there's an explanation that the PILT program involves, 
``payments to local governments that help offset losses in 
property taxes due to non taxable, federal lands within their 
boundaries.''
    Based on this explanation, I assume you agree with that 
definition, with that description of the program?
    Secretary Jewell. (Nods.)
    Senator Lee. Based on that you would identify this, not as 
a handout. It's not a special interest, carve out or something 
like that. This is a payment we make to local governments in 
order to help make them whole or at least in some way offset 
the burden of having non taxable, federal land within their 
jurisdiction. Is that right?
    Secretary Jewell. That's correct. I agree with that.
    Senator Lee. Now the 2016 budget proposes a yearlong 
extension of the PILT program. Then there's a statement in 
there to the effect that while we're doing this we also need to 
look at a sustainable, long term funding solution and that a 
sustainable, long term funding solution needs to be developed.
    Can you talk to us about your policy priorities or how you 
framed this issue as you look to make this a sustainable 
program over the long haul and tell me whether you would 
consider tying some federal resource to this whether it's 
perhaps revenue from timber harvested on federal lands or 
selling excess federal land to make it sustainable or something 
like that? How do you do that?
    Secretary Jewell. Well thank you for the question and for 
highlighting the importance of PILT. As Senator Wyden did with 
Secure Rural Schools, we know this is really important.
    We know that many of these communities rely on this money 
for the public services that they provide to the rural 
residents but also to the visitors to those communities.
    This budget, as I said in the front end, is a forward 
looking budget. It assumes that we move beyond sequestration. 
It assumes that we make investments in the future of this 
country.
    I think as you've seen over the last year with continued 
economic growth in the country, when we invest in this country, 
we see a brighter future and people appreciate that.
    Finding a long term, mandatory funding source for PILT is 
very important, just as I believe in support for the Land and 
Water Conservation Fund which has been talked about at this 
session. We have lots of revenues that are collected on federal 
waters, for example. The funding for the Land and Water 
Conservation Fund was intended to come from offshore oil and 
gas revenues. We collect something like $14.7 billion, a lion's 
share of that from offshore oil and gas revenues.
    It is possible that that funding source could be dedicated 
to PILT and Secure Rural Schools as well as the Land and Water 
Conservation Fund. We believe it should be mandatory. We'd like 
to work with you on solutions to make PILT mandatory so it's 
not a worry every single year or not subject to sequestration 
as we felt in 2013.
    Senator Lee. That's great. Thank you, I appreciate that, 
and I appreciate your willingness to put a high priority on 
this.
    My personal view is that it's got to be a high priority, 
and while you've got a lot of priorities to manage it's a 
difficult thing. I do think that PILT funding and making sure 
that it's fully funded, that it's adequately funded, that we're 
making adequate PILT payments, certainly ought to be of a 
greater priority than say other priorities like acquiring more 
federal land.
    At a time when the federal government owns nearly one-third 
of the landmass in the United States, more than two-thirds of 
the land in my state and where disproportionately the land 
owned by the federal government that is bringing about these 
economic burdens on states and local taxing jurisdictions or 
disproportionately in the Western United States, it makes it a 
high priority.
    On February 10th of this year Utah Governor Gary Herbert 
issued an executive order to further facilitate the protection 
of the Greater Sage Grouse. Now, as you know, the State of Utah 
has already developed a conservation plan for the sage grouse, 
one that, I think, addresses a lot of the competing interests 
and certainly addresses the most significant threats to the 
population of this bird.
    Can you tell me whether the Fish and Wildlife Service has 
endorsed this plan and what the Department is doing to 
coordinate with the State of Utah? Can you also give me your 
commitment that you'll work with Governor Herbert in giving 
this a chance to succeed?
    Secretary Jewell. Certainly. I have been working with 
Governor Herbert, and I'll continue working with him. I'm aware 
of his executive order, and I very much appreciate it.
    I saw him just a couple days ago at the National Governor's 
Association and asked if he could remove the 2017 expiration 
date because the Fish and Wildlife Service needs to look over 
the long term to make sure that they can rely on the executive 
order in order to make their determination. He said he wasn't 
aware of that and would certainly look into it.
    So I appreciate--that's the kind of cooperation I have, not 
just with Governor Herbert, but with all the Western Governors 
and the states as we have been very much at the table multiple 
times a year to address what's unique to Utah, what's unique to 
Wyoming, what's unique to Colorado and Nevada and Oregon and 
Montana and the other states.
    So you certainly have my word I'll stay at the table. I'm 
keeping my teams at the table. The BLM plans are being 
finalized right now. I think it will be in the spring that 
those final records of decision come out. And then the Fish and 
Wildlife Service will have all of that, the state plans, the 
BLM plans, to take into account as they make their final 
listing determination.
    But they've been at the table all along, so no surprises, 
no secrets. We are finally getting information shared with us 
from the states which is very useful including Utah because 
they'll need all hands on deck to make the right decision and 
we are very, very hopeful that the kinds of efforts made by 
Utah and other states will give them the confidence they need 
to not feel a listing is warranted.
    Senator Lee. Thank you, Madam Secretary. I appreciate that, 
and I have great respect for Governor Herbert and his efforts 
in this area.
    Secretary Jewell. I do too.
    Senator Lee. I appreciate your willingness to work with him 
and give that a chance to succeed.
    Thank you, Madam Chair.
    The Chairman. Thank you. We will do a quick second round of 
questions. I appreciate the time that you've given us this 
morning, Secretary Jewell.
    Because so many members have mentioned the sage grouse and 
this is fortunately an issue that we're not dealing with up 
north and want to keep it that way, in response to Senator 
Barrasso's question about the listing, you had said, Madam 
Secretary, that you were bound by the court to render a 
determination even though Congress had banned the issuance of 
the rule. But isn't it true that the settlement provides that 
such determinations are subject to appropriations? Because that 
was the language that we had included in the appropriations 
last year as part of a rider. So it's still subject to 
appropriations.
    Secretary Jewell. We'll look into the specific language, 
Senator. My understanding is that Fish and Wildlife Service can 
say we believe a listing is warranted or not warranted, but 
they have no appropriations to write a rule about that.
    The Chairman. Correct.
    Secretary Jewell. Yeah.
    The Chairman. It's subject to the appropriations. Anyway, I 
wanted to make sure that we had cleared that up because I 
thought as long as it is subject to appropriations and those 
have not been made, you are not able to move forward with it.
    I wanted to ask you about the cleanup of environmental 
contamination on lands that have been transferred to Alaska 
Native corporations under the Native Land Claims Settlement 
Act.
    Back in 2013 I asked the Department what they were doing to 
speed up the cleanup. This had been in response to a study that 
had been done way back in 1998. It proposed a six point effort 
to speed up the cleaning of contaminated land. In January of 
last year you sent me a letter that proposed that the 
Department was going to update its contaminated lands survey 
and then address the other recommendations coming out of that 
1998 letter.
    I am trying to understand where we are in this timeline. I 
have been led to believe that the updated list would be 
finalized this fall. There were more than 650 sites on the old 
list. We haven't received that yet.
    The question to you this morning is when might we expect an 
updated, comprehensive list of the contaminated sites? Further 
to that point, what is the proposal or what is the plan within 
DOI to really facilitate and move forward with speeding up and 
funding the contamination for the cleanup on these native 
lands?
    Secretary Jewell. Senator, I'll have to get back to you on 
the timing. I'm not exactly sure. I had brought up date from 
the BLM that they are assessing the sites.
    The Chairman. Right.
    Secretary Jewell. And I know they have been prioritizing 
those. Some are native conveyances and some are not. So we're 
sorting that out first.
    And they're also in the process of identifying potentially 
responsible parties that could be responsible for the cleanup, 
if there is a responsible party, clearly that's where we go 
first as opposed to the federal Treasury. So I will need to get 
back to you on when the list is going to be updated and we'll 
get to you with some specifics on their plans, if that's okay?
    The Chairman. That would be appreciated.
    We did have language within the current spending 
authorization that requires the Department to report by June of 
this year about the comprehensive inventory and what the plan 
is. But again, I think you sensed the priority when you were up 
in Alaska in addition to the legacy wells which we have had 
plenty of opportunity to discuss what that plan is and how 
we're going to be able to clean up that mess caused by the 
federal government.
    We have these native lands that have been conveyed pursuant 
to ANSCA. And again, just a frustration with a decades-long 
delay in addressing this.
    Please know that this is a priority for me. It's a priority 
for, I believe, the entire delegation, and it's clearly a 
priority for our native people.
    One final question for you and this is a question that I am 
posing at every budget hearing this year, and that relates to 
the Administration's proposal for an Arctic strategy. The 
implementation plan for the Administration under the National 
Strategy for the Arctic region has the Department of the 
Interior designated as the lead agency in five different 
project areas. You are also designated as a supporting agency 
for numerous other projects.
    So the question is, what funding is included in the 
President's budget for the five projects that DOI is the lead 
agency as well as for any other projects that the Department 
may be involved with with the Arctic region?
    Secretary Jewell. Mike and I are scrambling for our notes 
on this. So, yes, as we take over chairmanship of the Arctic 
Council which is largely driven by the Department of State we 
certainly intend to be at the table on that. I don't think 
this--let me see if I've got the numbers here. [Laughter.]
    Okay. No, Senator, rather than trying to run through this 
because this is very broad. Let me get back to you, 
specifically on the Arctic Council work, because this--oh, here 
we go.
    I don't know if this addresses your question. Arctic 
funding only pretty large numbers. $145 million in total. 
That's about a $3 million increase, but that includes 
everything that we're doing up there, the offshore oil and gas 
activity, the research activity, the USGS, even Park Service 
and Bureau of Indian Affairs. I don't think that's specific to 
your question.
    The Chairman. Offset----
    Secretary Jewell. So let me get back specifically on the 
Arctic Council work and those committees.
    The Chairman. I would appreciate a further breakdown. I had 
my folks scrub it pretty carefully. To be honest with you, we 
weren't able to find much that acknowledges that we do have 
this increased role. It is not just, as we assume the Chair of 
the Council, it is leading in the Arctic going forward and 
recognizing that DOI, again, is the lead agency in several of 
these different areas, five of these areas.
    We are trying to figure out are we doing anything or is it 
just window dressing? So if you can help me identify that, that 
would be greatly appreciated.
    Secretary Jewell. We're happy to do that. And I will say 
that it's very much on our radar, the USGS' radar. And so some 
of what we may be doing is steering existing resources to focus 
on the Arctic so that we can be prepared when the Arctic 
Council happens. We'll get back to you with more specifics.
    The Chairman. I would appreciate that.
    Secretary Jewell. Thank you.
    The Chairman. We will go to Senator Cantwell and then 
Senator Hoeven and Senator King.
    Senator Cantwell. Well, thank you, Madam Chair.
    I will say in general I am very impressed, Secretary 
Jewell, by the level of specificity you are giving to all our 
questions because we are covering a broad range of subjects. 
And so I'm going to throw three other ones at you. [Laughter.]
    First of all the Columbia River Treaty is hugely important 
to the Pacific Northwest. Again, I don't know whether Mr. 
Connor wants to take this or not, but what can we get from the 
Department of the Interior about clarifying these interests so 
we can move forward on a proposal through the Administration? 
Obviously, Interior has to weigh in with the White House and 
the State Department and we want to make sure that that's 
happening so that we can elevate the discussions with Canada.
    Secondly I want to get your thoughts on working with the 
Department of Energy on the finalization of the Manhattan 
Project implementation. You mentioned other park projects and 
their significance, but we want to ensure that the Park Service 
works closely with the local community in planning that park. 
And so we want to see if you can commit to finalizing that by 
the end of the year.
    And then lastly, my colleague, Senator Wyden, brought up, 
again, this process of BLM coal valuation and wanted to get a 
sense whether you could commit to your process by the end of 
the year on that, on the royalty issue. So?
    Secretary Jewell. Okay. Great. Let me turn to Mike on the 
Columbia River Treaty, and then I'll address the other two.
    Mr. Connor. Just very quickly on the Columbia River Treaty. 
The Secretary endorsed the regional recommendation that we move 
forward with modernizing the treaty, and we've informed the 
State Department. So that's--when that process and notification 
to Canada--when that's going to occur, I'm not quite sure.
    But with respect to the regional group we have a framework 
for modernizing the treaty that we'd like to proceed with 
dealing with the services they provide with respect to flood 
control, with respect to the ecosystem services and the 
fisheries' issues that we would like to include in those 
discussions.
    Senator Cantwell. So you've sent that to State?
    Mr. Connor. Yes, we have.
    Senator Cantwell. Okay.
    Secretary Jewell. Okay, quickly on the Manhattan Project. 
This came under the NDAA. There wasn't money in the current 
budget. We are pushing DOE for its support on this, and I know 
that the National Park Service will be very, very interested 
engaging local communities. And that will be part of the 
effort.
    So, I can't answer whether we'll have it finalized by the 
end of the year because we've got to cobble together some 
resources from somewhere to look at it because it's not 
currently in the budget request because the budget was done 
before it came up. So we are working with DOE. We're going to 
need their financial support to do this.
    Senator Cantwell. I just talked to Secretary Moniz at last 
week's hearing about this. So----
    Secretary Jewell. Great. Did he commit? [Laughter.]
    Senator Cantwell. Yes, he did.
    Secretary Jewell. Okay.
    Senator Cantwell. So, yes.
    Secretary Jewell. So the Park Service does engage with 
local communities. I'll make sure this is on their radar, and 
we'll do our best to get it done by the end of the year and get 
it in the next budget cycle so that we can move forward. It's 
an important opportunity.
    On coal valuation we just released the draft, I think, on 
January 6th. We just extended the comment period to May 8th 
because there are--it's complicated and we're going to have a 
lot of comments. So whether we can get it across the finish 
line by the end of the year is questionable just because it 
depends on how many comments we get because we have to respond 
to all of those comments.
    We certainly are focused on getting it done while I'm in 
this chair and while the President is in his chair. It's been 
very important and we've heard about it from the GAO and our 
own IG, as you point out. We want to make sure that the 
American taxpayer is getting a fair return.
    We've also had extensive consultations with industry, and 
the proposal that we've put out there actually streamlines and 
makes the process more efficient and provides more certainty on 
that end while also providing, you know, more certainty that 
will get the return that we should be getting as American 
people.
    So, it's going to depend on the comments, but we are 
certainly focused to getting this done. I think just conversing 
with my colleague here, end of the year may be tight given the 
time frame on the comment period.
    Senator Cantwell. Okay. Thank you.
    Secretary Jewell. Thank you.
    Senator Cantwell. Thank you, Madam Chair.
    The Chairman. Senator Hoeven.
    Senator Hoeven. Thank you, Madam Chairman.
    I appreciate both you and the Ranking Member holding this 
hearing today, and I want to thank both the Secretary and 
Deputy Secretary for being here.
    First, I want to thank Secretary Connor for work that 
you're doing to try to help and facilitate the Dakota Access 
Pipeline. So, that's just to thank you. I want to acknowledge 
you right up front. It is very important, and we appreciate it.
    I'd like to ask Secretary Jewell about BLM in regard to 
coal leasing. I was just out in the coal fields and they're 
actually moving one of these big drag lines. It's a ten million 
pound drag line and they're going to put it on carts and move 
it. If you can imagine that, it's just unbelievable.
    While I was out there they showed me a tract of land that 
they're in the process of leasing and it includes 350 mineral 
acres owned by BLM. BLM does not own the surface acres and it's 
only 350 mineral acres, but BLM has indicated to the mining 
company there that it's going to take seven to ten years to get 
an approval.
    For heaven's sake, that's just totally unrealistic. If in 
fact that's the case, the company will mine right around it. 
Again, BLM doesn't even own the surface acres. And they'll just 
mine right around it because the private leaseholders, you 
know, they'll have that squared away probably in a year or 
less. And that's typically what BLM has done too.
    So I'm absolutely flabbergasted as to what possibly could 
be going on here. Do you have any idea?
    Secretary Jewell. I don't know that circumstance at all. Is 
the surface acre owner supportive of the mining activity?
    Senator Hoeven. Yes.
    Secretary Jewell. Yeah.
    Senator Hoeven. And there's mined land all around there and 
reclaimed land all around there. In fact the reason that it's 
coming into place is because they're moving this huge drag 
line. And they've reclaimed the land all around it and you 
know, you, of course you've been to North Dakota. Thank you so 
much. We'd welcome you out anytime to see it.
    But the reclaimed land is beautiful. It's being hayed and 
grazed and there's geese all over. So now they're moving to 
this new track, and here's 350 acres and BLM doesn't even own 
the surface acres. The private owners, of course, want it 
mined.
    Secretary Jewell. Yeah.
    Senator Hoeven. Because it's a lot of revenue and it's 
revenue to the federal government. But seven to ten years and 
then they wanted something like $230,000 or $250,000 to go 
through the study to determine if they could even lease it out. 
That's never going to happen. All they're going to do is mine 
around you, and then the Federal Government is just out the 
revenue. It doesn't make any sense at all.
    Secretary Jewell. Well, Senator, it's not necessarily easy 
to do business on Federal/public land because of the 
requirements that we have as a Federal land management agency. 
It triggers NEPA. It triggers and environmental impact 
assessment.
    And so, I will talk to the BLM about this specific project 
and talk about the time frame they're talking about, the seven 
to ten years that you referenced, and see if there is anything 
they can do to speed that up. But I will say the rules are 
different. Doing business on federal lands based on the laws 
that we have to abide by.
    Senator Hoeven. And we know Neil Kornze. We have a good 
relationship with him.
    Secretary Jewell. Yeah.
    Senator Hoeven. But you've been doing it in a year and now 
seven to ten years?
    Secretary Jewell. On coal we have been doing it on new 
sites?
    Senator Hoeven. Yes. You've been doing it in a year, bigger 
tracts. I think they just did a tract out there that was over 
one thousand acres and it took less than nine months to a year 
to do.
    Secretary Jewell. We'll take a look at it.
    Senator Hoeven. Yeah. So something is going on.
    Secretary Jewell. Okay.
    Senator Hoeven And again, we know Neil and we work with him 
but something needs to be checked on here.
    Oil lease. We're still working to expedite that process. 
You're still running 180 to 270 days for an approval on BLM 
land verses a few weeks on private.
    And Jamie Connolly out there is fantastic. Anything you can 
do to help her, help us, please do.
    Secretary Jewell. Let me just say, I said this earlier, but 
there is money in this '16 budget to automate our BLM 
applications for permits to drill. It's paper-based, and it's 
more custom than we would like it to be.
    We've got a pilot going in Carlsbad, New Mexico that I went 
and took a look at. We've got a pilot going in Vernal, Utah. 
We'd like to take the learnings from that and apply it, and 
that will help our folks expedite their process.
    I'll also say that oftentimes in that 180 to 270 days is 
time that the permit is back with the company providing 
information we need. But if there's a way we could work on 
getting that dealt with up front so there isn't the to-ing and 
fro-ing, I think that that will help.
    And there is money in the budget to do that along with a 
request that we are able to charge fees to industry, not only 
for APDs but also for inspections because we can't get out and 
inspect 100,000 wells that we have. So that's part of this 
budget request as well.
    Senator Hoeven. Great. Those are exactly the kinds of 
things that Jamie has been working with us and our industry on. 
So anything you can let her do as a pilot project, I would 
recommend it because she's got a good relationship out there.
    Secretary Jewell. Right.
    Senator Hoeven. With industry and she is creative and she 
does try to do things. So I hope some of these dollars and/or 
programs could be moved her way to try and help us improve the 
process.
    Secretary Jewell. Well this budget lets us roll it out 
everywhere. And so----
    Senator Hoeven. Good. I think she'd be a great one to help 
you do it.
    Secretary Jewell. She would.
    Senator Hoeven. And we would like to work with you on that.
    Secretary Jewell. Great.
    Senator Hoeven. The last thing, if I can beg the indulgence 
of the Chairman for one more question?
    The Chairman. Quickly.
    Senator Hoeven. Hydraulic. When are you coming out with 
your hydraulic fracturing rules?
    Secretary Jewell. Soon. A specific date I can't give you, 
but we have gone through our extensive process. We've revised 
the rules, and we're just waiting for final clearance. So it 
will be soon.
    Senator Hoeven. Where you can work with the states I 
strongly encourage it. We have done that with the tribes, and 
it is working well.
    Secretary Jewell. Yeah.
    Senator Hoeven. And so I just would ask for your 
willingness to work with the states.
    Secretary Jewell. We will do that.
    Senator Hoeven. Thank you.
    Secretary Jewell. Thank you.
    Senator Hoeven. Thank you, Madam Chair.
    The Chairman. Senator King.
    Senator King. Thank you, Madam Chair.
    Madam Secretary, I just want to associate my comments with 
that of Senator Portman on the long eared bat issue. I think 
this is real opportunity for the service to really link closely 
the remedy with the science. The results of an overly broad 
structure of regulation as a result of any kind of listing 
would be just, I believe, catastrophic across the country 
because the habitat is so broad.
    I believe in the Endangered Species Act, but we have to be 
careful how we administer it that we don't undermine public 
support for it. I think this is a good test case. So I urge 
you, again, associate my comments with Senator Portman.
    Secondly, you may have noticed out of the corner of your 
eye I was playing with this. I wasn't texting or tweeting. I 
was sadly trying to find an app to buy a park pass, and when 
you put in National Park pass, to my dismay you get Australia 
National Park pass. You don't get USA park pass.
    So then I went to the website and found that I can buy a 
park pass I didn't go all the way through it, but just below 
are the most dreaded words on any website, ``If you need your 
pass within ten days or less, it is recommended that you either 
purchase your pass at the first site you visit or request 
expedited shipping service for your order.''
    Come on. You have to mail the pass out in 2015? I hope I am 
wrong about that, and if I am I will be delighted to be 
corrected. If you have got to go online, buy the park pass and 
then somebody has to mail it to you and you are not able to 
print it yourself, make it printable. Again, I hope I am wrong.
    The point is, let's say by June 1st, let's have a National 
Park app, like Starbucks has an app. Everybody has an app. You 
wave your phone at the kiosk on the way into the National Park, 
and you get the fees and everybody is happy, and it is a good 
customer experience.
    So how about giving me a commitment that you will get us a 
National Park app within a couple of months remembering that 
Eisenhower retook Europe in 11 months? [Laughter.]
    Secretary Jewell. Point well taken, Senator King.
    As a person that did a lot of business in electronic 
commerce I can tell you that it actually requires investments 
to be able to do what you're suggesting. The Park Service 
budget for this year requests significant amount of money, 
overall, to improve our technological support.
    We are in the process as the President announced a few days 
ago, of something called Every Kid in a Park, and that is 
automating a pass for fourth graders and their families to use 
parks for free. We are working with some wizards in the White 
House that have come from private industry, Google, 
specifically, and other similar firms to help us pull that 
together.
    If there is an opportunity to automate what you're talking 
about for others we'll look at it, but I will also tell you 
that it's very expensive. Of having worked at REI, it's very 
expensive to actually do automated and cross checks and tying 
into credit cards and all of those things. I think perhaps an 
appropriate way forward is to work with private industry to 
facilitate the sale of those park passes so we can lean into 
that technology that's there.
    We're behind in every department of the Interior and 
perhaps a lot of parts of the federal government in the use of 
technology from automating our oil and gas permits to 
facilitating visits to the National Parks. I do have National 
Park apps on my phone. They aren't provided by the National 
Park Service even though----
    Senator King. Individual.
    Secretary Jewell. The information is----
    Senator King. Individual parks.
    Secretary Jewell. Ah, no, actually NPCA has an app that I 
use that's got lots of information.
    Senator King. Oh, that's the one I just downloaded. That's 
for all the parks, but it's a private site.
    Secretary Jewell. It's private, yeah. That's right. It's a 
non-profit organization.
    Senator King. Well, you get the point.
    Secretary Jewell. I do get the point.
    Senator King. And if you need more money to do it. This is 
basic customer service.
    Secretary Jewell. Yeah.
    Senator King. If you need more money to do it, tell us. And 
if what's in the budget isn't sufficient because I just think, 
as I said before, there's money left on the table here. This 
would pay for itself, probably, in a year in terms of increased 
revenues to the Department based upon easier access to park 
passes.
    Secretary Jewell. This is certainly something we'll look 
into, and I appreciate your point.
    Senator King. Thank you.
    Secretary Jewell. We are not nearly as automated as we 
would aspire to be.
    Senator King. Good. Thank you.
    Secretary Jewell. Thanks.
    Senator King. Thank you, Madam Chair.
    The Chairman. Thank you.
    Good hearing. There have been a lot of different questions.
    I appreciate what you are saying though, Senator King, 
about making it easier to access the parks. Given that we have 
got this centennial coming next year, I have had long 
conversations already with John Jarvis about the goal of 
getting more people into the parks. My response back is well 
we've got to figure out then how we are going to deal with the 
maintenance issues, because I do not want families coming to 
one of their national parks for the very first time and seeing 
that it looks shoddy.
    We've got some work to do here in terms of how we are going 
to be dealing with this $13 billion backlog that is out there. 
I happen to think we might be able to get a little bit more 
creative with our LWCF fund instead of purchasing more federal 
land. I think we might want to look to that as perhaps a 
funding opportunity.
    Madam Secretary, I will be submitting a host of other 
questions for the record as I think other members will.
    I just want to put you on alert. I have been to a couple 
different events in the past several weeks where large 
gatherings of hunters come together, and the most talked about 
issue was the filming on public lands, whether it is our Park 
Service lands, our Forest Service lands, and being able to 
film.
    It is clear to me that there is an inconsistency that 
doesn't help and real frustration with those who want to be 
able to show our amazing public lands through capturing videos 
and photographs and filming and the requirements that are being 
placed on them.
    I will conclude my remarks here today with a statement that 
you just used in response to a comment from Senator Hoeven. You 
stated, ``it's not easy to do development on federal lands.'' I 
think this is where you hear the greatest frustration from 
those of us who have such great percentages of our states that 
are federally held.
    I appreciate that there are differences, but it ought not 
be next to impossible. In many instances that's seemingly what 
our issue is. So how we make it easier and better and more fair 
to do development on federal land is what, I think, we need to 
get to because as Senator Hoeven says, you're just going to go 
around your Federal lands and then we get no revenue to the 
Treasury. It just does not make sense, so we need to work in 
that regard.
    With that, I appreciate you have given the Committee a lot 
of time. Senator Cantwell, if you want to have the final word?
    Senator Cantwell. Well, I would just say thank you, Madam 
Chair, for this hearing. I think a lot of members showed up and 
we had a lot of input and a lot of questions across the board.
    I get your point about Federal lands. And yes, I am sure 
that there is a higher percentage in Alaska than in Washington 
State. But in Washington State we get a lot of revenue from 
those public lands and so that's been a big benefit to us.
    I definitely want to work with you as we move forward on 
trying to think about an energy package and what we can do 
together to bolster our economies and to work together on 
policies that can move us forward.
    I feel like we had a broad range of things brought forward 
here today. And I certainly appreciate the witnesses and this 
particular budget proposal. So----
    The Chairman. Thank you. We stand adjourned.
    [Whereupon, at 12:33 p.m., the hearing was adjourned.]
    
    
    
    
                      APPENDIX MATERIAL SUBMITTED

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
</pre></body></html>
